<html>
<title> - HEARING ON PERSPECTIVES ON HOUSE REFORM: LESSONS FROM THE PAST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



     HEARING ON PERSPECTIVES ON HOUSE REFORM: LESSONS FROM THE PAST

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON RULES

                                 of the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2003

                               __________

                            Serial No. 108-5

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-778                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississppi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

                  Steven Cash, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

                         Subcommittee on Rules

                 Lincoln Diaz-Balart, Florida, Chairman

Jennifer Dunn, Washington            Louise McIntosh Slaughter, New 
F. James Sensenbrenner, Wisconsin    York
David Dreier, California             Bennie G. Thompson, Mississippi
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Porter Goss, Florida                 Zoe Lofgren, California
John Linder, Georgia                 Karen McCarthy, Missouri
Pete Sessions, Texas                 Kendrick B. Meek, Florida
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                  (II)
?

                                CONTENTS

                              ----------                              

                           MEMBERS STATEMENT

The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida, and Chairman of the Subcommittee on 
  Rules..........................................................     1
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas.................................................     5

                               WITNESSES

Mr. Charles W. Johnson, Parliamentarian of the House of 
  Representatives
  Oral Testimony.................................................     6
  Prepared Statement.............................................    10
Mr. Thomas E. Mann, W. Averell Harriman Chair and Senior Fellow, 
  The Brookings Institution
  Oral Testimony.................................................    28
Mr. Norman Ornstein, Resident Scholar, American Enterprise 
  Institute
  Oral Testimony.................................................    30
Mr. Thomas E. Mann and Mr. Norman Ornstein
  Prepared Statement.............................................    34

                   MATERIALS SUBMITTED FOR THE RECORD

Mr. Charles W. Johnson, Parliamentarian of the House of 
  Representatives................................................    49

                                 (III)

 
     HEARING ON PERSPECTIVES ON HOUSE REFORM: LESSONS FROM THE PAST

                              ----------                              


                          Monday, May 19, 2003

                  House of Representatives,
             Select Committee on Homeland Security,
                                     Subcommittee on Rules,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 5:29 p.m., in Room 
340, Cannon House Office Building, Hon. Lincoln Diaz-Balart 
[chairman of the subcommittee] presiding.
    Present: Representatives Diaz-Balart, Dunn, Dreier, Goss, 
Linder, Slaughter, Sanchez, Lofgren, McCarthy, and Meek.
    Also Present: Representatives Cox and Turner.
    Mr. Diaz-Barlart. Good afternoon. I would like to begin 
this hearing welcoming Chairman Dreier. And I know other 
members, Louise Slaughter, our ranking member, sent a message 
that she would be just a little late but she intends to be 
here.
    I would like to welcome not only our distinguished 
panelists, but all of our visitors to the first hearing of the 
Subcommittee on Rules of the Select Committee on Homeland 
Security. The mission of this subcommittee is an extraordinary 
one and it is difficult, but it is one that we do not shy away 
from.
    Today the subcommittee begins a series of hearings. The 
overall objective for our hearings is to solicit the insights 
and recommendations of experts on Congress, including scholars, 
both current and former Members of the House and perhaps former 
administration officials.
    The hearing today and the others that will follow are 
designed to help and, in turn help, the select committee 
fulfill the mandate given to it on the opening day of this 
Congress in H. Res. 5, and I will quote the most relevant part 
of H. Res. 5. ``The select committee is authorized and directed 
to conduct a thorough and complete study of the operation and 
implementation of the rules of the House, including rule X with 
respect to the issue of homeland security. The select committee 
shall submit its recommendations regarding any changes in the 
Rules of the House to the Committee on Rules not later than 
September 30, 2004.''
    More than a decade has passed since the operations and the 
organization of the House were last subjected to a major 
review. That last thorough study was undertaken precisely in 
1993 by the Joint Committee on the Organization of Congress on 
which our own Rules chairman, a member of this subcommittee, 
David Dreier, served as vice chairman. The select committee's 
vice chairman, Jennifer Dunn, also served on the joint 
committee. Although Congress was unable to enact a legislative 
reorganization act in 1994, some of the recommendations of the 
joint committee subsequently were adopted by the House.
    As we all know, since the 1993 joint committee much has 
changed in the Congress, in our country and in the world. And 
like other extraordinary events in our history, such as the 
attack on Pearl Harbor or man's landing on the Moon, we will 
long remember what happened on September 11, 2001, when 
terrorists attacked the homeland of the United States. It is in 
response to September 11, 2001, that our being here can best be 
explained.
    At the urging of Congress, President Bush signed 
legislation into law creating a new Department of Homeland 
Security, the largest reorganization of the executive branch 
since at least the establishment of the Department of Defense 
in 1947. Now, it is the responsibility of this subcommittee to 
assess whether the House and most especially its committee 
system is organized effectively to address the many issues 
associated with homeland security.
    We undertake this assignment with no preconceived ideas or 
preferred outcomes. We are open to all ideas and 
recommendations. We may find, for example, that the current 
standing committee structure is functioning as we wish it to 
function, or we may come to the conclusion that the committee 
system as it exists needs perhaps minor tinkering or 
significant reform. There may be additional rules besides rule 
X that might require our attention. My point is that the 
subcommittee is willing and open to explore a wide range of 
options and questions as we undertake our review of the House 
rules as mandated by the House.
    A fundamental objective of our hearings will be to provide 
the members with background information and analysis on several 
of the past House reorganization efforts. All of us need to 
know what lessons or insights can be learned from what has 
happened in the past. Were real reforms achieved or were some 
of the boxes simply shifted around or committees renamed with 
no significant improvement in how we conduct or business? We 
also need to hear from experts who can perhaps identify other 
major institutional reform areas that merit review and 
attention by this subcommittee.
    Our ranking member Louise Slaughter and I plan to include a 
panel of former Cabinet Secretaries at today's hearing. We 
wanted to consider their views on how they worked with the 
Congress' committees. However, many of the people we invited 
were out of the country or had conflicting engagements and they 
could not be with us today, so we will try to schedule that 
panel at a later date.
    At this point I would ask any members of the subcommittee 
for any opening statements. Mr. Dreier.
    Mr. Dreier. Thank you, Mr. Chairman. Let me congratulate 
you and our friend Mrs. Slaughter, with whom I just attended 
the U.S.-canada conference this weekend. She is coming back 
because she is actually participating in another subcommittee 
hearing of this committee in Canada now, or I guess it is in 
New York, where they are holding this meeting.
    Let me say that this is obviously very, very important what 
we are undertaking here. The mandate of this subcommittee as 
well as the work of Mr. Linder, who chairs the Technology and 
the House Subcommittee of the Rules Committee, will be 
undergoing a thorough and complete study of the operation and 
implementation of the rules of the House, including rule X, 
with respect to homeland security. That is actually the 
language as it was put forth that has led to the work of this 
effort. We all know that rule X deals with the basically the 
jurisdictional issue with the committee system. And Mr. 
Chairman, let me say that, and I know I said this at our 
opening meeting, and that is I think it is very important for 
to us remain as open-minded as we possibly can. A lot of people 
come with preconceived notions to this issue. And you mentioned 
back in 1993 we worked on this. That was one of the challenges 
we had then, was to try and be as open-mined as possible and we 
know it is challenging when you deal with a wide range of 
issues and, of course for all of us, personalities. So I hope 
very much that we will be able to do that.
    As you correctly pointed out, since the attacks of 
September 11th our perception of national priorities has 
changed dramatically. Terrorist attacks on our homeland 
introduced a new sense of vulnerability to Americans and gave 
Congress an imperative to act to protect the American people. 
Congress responded with its passage of the Department of 
Homeland Security legislation last year and with its formation 
of homeland security appropriations subcommittees and in the 
House this Select Committee on Homeland Security. We know that 
our mission is to review all the rules and procedures of the 
House to ensure that we are dealing with homeland security in 
the best, most coherent way possible. And to that end let me 
just say that I am very pleased that we are joined--well, Mrs. 
Slaughter made it back. We are glad that she is here along with 
my colleague Mr. Goss. You are right over here, Louise. Not 
that I am in charge but it is hard for me to break that habit.
    Let me say I am very, very pleased that we have the rare 
privilege of having the great Parliamentarian of the House 
Charlie Johnson as our first witness. As I said, I don't know 
of another instance when a Parliamentarian has come forward to 
testify before a committee in the House and I also want to say 
that the staff of the Parliamentarian are extraordinarily e 
capable, extraordinarily knowledgeable, and I have a lot of fun 
with them, often late at night because the Rules Committee 
meets late at night. But I do want the record to show that I 
have a great appreciation for the expertise and the 
professionalism of the Parliamentarian and his staff.
    I also want to say that two friends with whom I worked very 
closely a decade ago on the Joint Committee on the Organization 
of Congress are going to be testifying, Norm Ornstein and Tom 
Mann. I am looking forward to their thoughts on this and 
congratulate you for the leadership you are showing on this.
    Mrs. Slaughter, I mentioned you before you came in. Thank 
you for your hard work on this. I want to again thank Mr. 
Linder, whose subcommittee is focusing on these issues as well.
    Thank you, Mr. Chairman.
    Mr. Diaz-Barlart. Thank you, and we are very pleased to 
have our ranking member Louise Slaughter, who has joined us 
after having been present at another hearing today, and thank 
you, Louise. You are recognized.
    Ms. Slaughter. Thank you, Mr. Chairman. We did have a 
spectacular morning. We had a press conference looking over 
Niagara Falls on a glorious day this morning. So that was 
really quite nice. But I am happy to be here with all of you 
this afternoon.
    Like the chairman, I am glad the work of the subcommittee 
is getting underway. We have several excellent witnesses who I 
have known for some time. Back in my old venture in trying to 
save the rules of the House, you were very helpful. I am 
anxious to hear what they have to say about whether or to what 
extent the House needs to revise its organization and its 
procedures and structures. As a veteran of past reform efforts, 
I know the subcommittee has been handed a difficult assignment. 
To change the procedures, practices or routines of the House is 
no easy matter.
    Members often have a vested interest in the status quo or 
if not a vested interest, then members may have learned to 
accommodate whatever deficiencies they may encounter. For all 
the headaches and heartaches that advocates of reform often 
face, it is still a worthwhile endeavor for the House to step 
back and periodically study and review its organization.
    There is always room for improvement in any institution, 
especially in a place as large and as complex as the House of 
Representatives. That is why I am particularly interested to 
hearing what today's witnesses have to say and what insights 
they can share with us about how they might improve the 
effectiveness of the House of Representatives.
    Drs. Mann and Ornstein were the lead authors a decade ago 
of a major study entitled ``Renewing Congress.'' Is renewal 
again a top priority for the House? And our Parliamentarian 
Charles Johnson just issued a new version of House Practice, a 
renewal project that may also stimulate in Mr. Johnson some 
ideas for change.
    Our mandate under H. Res. 5 is broad, as the chairman 
indicated, a study to review House rules, especially rule X, 
dealing with our committee systems, to determine if they need 
change or revision so that the House can more effectively 
handle issues of homeland security.
    This is a large assignment and our time is relatively 
short. We all have other assignments and many other duties and 
functions in the House. I suggest that as we begin our several 
rounds of hearings we also begin to think about what should be 
the principal focus of our attention. We cannot take on every 
reform area that our various witnesses might suggest. Simply 
dealing with the committee system is a huge undertaking. As we 
proceed in our work, I believe it is very important that we 
hear not only from outside experts and former Members, but also 
from sitting Members, a sitting Member who wants to testify or 
submit testimony for the record.
    We all know that the House has many committees and 
subcommittees and scores of other work groups and a complex 
array of rules and procedures. Our colleagues know the 
strengths and weaknesses of this institution as few others do. 
We need to hear from them in this process. I know our chairman 
will invite all of them to appear at this point, but I want to 
underscore the contribution that they can make. At some point 
we might want to solicit their views through a questionnaire or 
conduct personal interviews with a selected number of them.
    Mr. Chairman, the time we spend in hearings and study 
should provide the subcommittee with ideas on how to approach 
particular problems areas and how they may be resolved. Our 
hearings may very well lay down some important markers, the 
route that we should take to improving, strengthen the House.
    Mr. Diaz-Barlart. Thank you for your remarks, very 
thoughtful, and I appreciate them very much.
    Mr. Goss.
    Mr. Goss. Thank you, Mr. Chairman. I actually came to hear 
what the witnesses had to say. So I will thank you very much 
for this great opportunity to come and hear some excellent 
witnesses on a matter that we care about. I appreciate the 
remarks that have been made by my other colleagues and 
associate myself with them and yield back.
    Mr. Diaz-Barlart. Ms. Lofgren.
    Ms. Lofgren. I would also like to hear from the witnesses, 
so I will defer a statement.
    Mr. Diaz-Barlart. Mr. Linder.
    Mr. Linder. Nothing.

             PREPARED STATEMENT OF THE HONORABLE JIM TURNER

    The Select Committee on Homeland Security will consider many 
matters over the coming months that will bear directly on the security 
of the American people. Nonetheless, one of most important 
responsibilities of this Committee will be the subject of this 
evening's hearing--changes that ought to be made to the Rules of the 
House in response the creation of the Department of Homeland Security.
    One might ask how mere rules could possibly be as important as the 
substantive issues that have and will come before this Committee. The 
answer is that our rules will determine the character of relationship 
between Congress and the new Department. And this relationship may very 
well have a strong bearing on the success or failure of the Department.
    Let us keep in mind the challenges facing the Department of 
Homeland Security. It must take 22 separate agencies, which all had 
different cultures and operational structures, and merge them into a 
coherent whole with a common mission of protecting the homeland. This 
will be no easy task. But this task is made even more difficult by the 
current congressional committee structure.
    As the scholars on our panel will tell us tonight, the Department 
of Homeland Security must currently answer to dozens of House and 
Senate Committees and scores of subcommittees. This structure not only 
places a serious administrative burden on the Department's senior 
management, but it also pulls a department that it trying to unify 
itself, in multiple policy directions. This result is not good for the 
Department, for the Congress, and ultimately, for the country.
    I am well aware that the history of congressional reform movements 
suggests that efforts to make radical changes to the House's committee 
structure have most often ended in failure. But we must all keep in 
mind that the September 11 attacks on our homeland require a new 
approach to governing. We have taken the first step by undertaking the 
largest reorganization of the Executive Branch in half a century. 
Congress must now take the next step of adapting to the reality of the 
new Department of Homeland Security. To its credit, the Appropriations 
Committee has already responded. The authorizing committees must now 
also respond. Tonight's hearing marks the beginning of that process and 
I welcome the distinguished panel.

    Mr. Diaz-Barlart. Thank you all very much. I am honored 
that our lead off witness is someone not only we all know but 
who has an institutional memory and expertise about the House 
that is probably unmatched, and that is Charles Johnson, the 
House Parliamentarian. Mr. Johnson has been the Parliamentarian 
since 1995, but has served in the Office of the Parliamentarian 
for four decades. It is truly a privilege to have you here 
before us, sir, and without objection your remarks will be part 
of the record and you are recognized.

 STATEMENT OF CHARLES W. JOHNSON, PARLIAMENTARIAN OF THE HOUSE 
                       OF REPRESENTATIVES

    Mr. Johnson. Thank you, Mr. Chairman. The five pages of 
remarks I hope are disseminated in a timely way. I don't plan 
to repeat much of that, just to highlight a few things and 
then, to maximize your time, Mr. Chairman, and the members, to 
be available for questions.
    The chairman of the Rules Committee couldn't remember when 
anyone had ever testified from our office. My beloved 
predecessor William Brown testified almost 10 years ago to this 
day before his joint committee.
    Mr. Dreier. I remember that now.
    Mr. Johnson. So whether it was forgettable testimony, it 
shouldn't have been. Bill approached it with the same 
trepidation as I approach this, because our function is to 
serve all the Members in an advisory capacity, beginning with 
the Speaker clearly, and not necessarily to be advocates. As I 
was asked to give some background about past reorganization 
attempts, I have attempted through my submission, and 
particularly through the appendices A through G that I believe 
you all have, to give an indication of how difficult 
reorganization attempts have been, especially through select 
committees. Just to elaborate on some of that prepared 
testimony for a few minutes and then, as I say, to be available 
to questions, both about past jurisdictional and reorganization 
efforts and more precisely now about the enactment of the 
Homeland Security Act and the consequent reorganization efforts 
that you are mandated to conduct.
    Let me just begin by going back to 1974 very quickly. 
Appendix A is a summary in 1993 of jurisdictional overlaps 
which we have updated to a certain extent. That is across-the-
board jurisdictional overlaps. What I want the committee to 
understand is where we are in the referral process, where we 
have been since 1974. I use the word ``inadvertent'' in my 
prepared statement to suggest that the House on that watershed 
day of October 8th, 1974, rejected a major organizational 
attempt through the so-called Select Committee on Committees, 
chaired by Richard Bolling, later to become chairman of the 
Rules Committee, but maintained within the recommendation that 
was finally adopted a referral mechanism that has proven 
difficult, now with almost 30 years of precedent behind it. One 
of the submissions here is an excerpt from our most recent 
House Rules and Manual which shows the variations of referrals 
that Speakers have made. The whole premise of the Bolling 
select committee was that there be for the first time beginning 
in 1975 the authority for the Speaker to make multiple 
referrals. Until that point the Speakers were only required by 
tradition and by the rules of the House to make a referral to 
one committee.
    My first 10 years as an Assistant Parliamentarian were 
spent to a great extent trying to discern primary jurisdiction 
on every bill referred. It wasn't always easy but we collected 
files, we had examples. We always made recommendations to the 
Speaker based on precedent if we could find similar bills, 
similarly referred. We had guidelines indicating what were 
major committees and what were perhaps incidental or secondary 
committees. But when the organization came to the attention of 
the House, the House in its wisdom retained more or less the 
existing fragmentation of committee jurisdictions.
    Submission B is a summary of those rules changes. It was 
summarized in a little red book prepared by the so-called 
Hansen-Burton coalition, primarily of the Democratic Caucus at 
the time. This OSR sub-unit of the Democratic Caucus served as 
the review entity of the Bolling select committee's 
recommendations, and they were more focused in their 
substitute. They retained this notion of multiple referral in 
their alternative recommendation, describing it as merely 
giving the Speaker discretion.
    Now, the Speaker's discretion comes in various shapes and 
forms. It is not similar to the absolute power of discretionary 
recognition that the Speaker has on the floor, but it is guided 
by the language of clause 2 of rule XII that suggests that 
referrals must be made to the maximum extent practicable, that 
is where the motion of discretion comes in, to all committees 
with legitimate jurisdictional claims. The precedents that have 
evolved for the 30 years which are shown in our submission C, 
it is just an excerpt from the House Manual, show the variety 
over those 30 years of referrals that have been made. And the 
one constant, is that our advice has been based upon the 
consistent tradition of the House, which has been to 
depoliticize the referral process.
    Now, the role of the Speaker is multifold, as you all know. 
He is the presiding officer of the House, he is the political 
leader of the majority party. But in his role as presiding 
officer he is required under the rules of the House to make 
referrals to committees. Both before the multiple referral 
change and since, all Speakers without exception have delegated 
to the Office of the Parliamentarian the authority to make, 
render advice which they will abide by on committee 
jurisdiction.
    Now, that is not to say that there is no element of 
political consideration given on referrals. Certain elements 
may be injected. When it comes, for example, to determining the 
length of referrals, Speakers now have the ability to put time 
limits on all referrals. They often exercise the authority to 
put time limits on sequential referrals. The decision was made 
by those of us in the Parliamentarian's office, with the 
approval of Speaker Albert and then Speaker O'Neill, to defer 
decisions on referral to the committees that we discerned to be 
relatively incidental to the primary committees of 
jurisdiction.
    So to a great extent referrals that you will read in the 
record on opening day do not reflect decisions that our office 
has made for the Speaker on sequential referrals where we feel 
a committee has a relatively incidental jurisdictional claim, 
waiting instead to discern whether or not the primary committee 
or committees will recommend a certain policy change. There are 
so many examples of sequential referrals where the decisions 
have first been deferred and then ultimately made that the work 
product of that primary committee should then be sequentially 
reviewed. That is basically the process today. I mention it not 
just from an historical perspective because it describes where 
we are right now in the referral process to your Select 
Committee on Homeland Security.
    As you know, the Speaker has been mandated by the opening 
day rules to make referrals as determined by the Speaker of 
measures, bills and resolutions. So it is more than an 
oversight function that your full committee and by extension 
your various subcommittees will be performing.
    Submissions F and G are summaries of the various elements 
of the Homeland Security Act of 2002 over which various 
standing committees of the House in this Congress and in last 
Congress can legitimately claim jurisdiction. So I will call 
your attention--as you have time to read those insertions, 
those appendices G and F, you will find that there is 
considerable overlap but it goes to the basic decision that the 
House made in the last Congress as it created the Select 
Committee on Homeland Security to receive recommendations from 
the various standing committees. That was about a month and a 
half period just about a year ago at this time when 12 standing 
committees--11 standing committees and the Permanent Select 
Committee on Intelligence submitted recommendations to the then 
five and four Select Committee on Homeland Security, comprised 
as you know primarily of leadership on both sides. Those 
recommendations, many of which were implemented in the House 
passed version and in the final version of the Act, are worthy 
of your perusal at this point, not only the recommendations 
that were implemented but the recommendations that were not, at 
least then, implemented.
    We have also submitted an index, a table of contents, what 
is soon to be the very voluminous hearing record of last year's 
select committee on committees, because it will show the 
recommendations to the extreme detail of all of the standing 
committees and intelligence select committee to the Select 
Committee on Homeland Security, and analyses of those 
recommendations, as I say many of which were implemented, more 
of which were not.
    So here you are today as a committee which has legislative 
jurisdiction over, quote, ``matters relating to the Homeland 
Security Act of 2002.'' What do those words really mean as far 
as our responsibility through the Speaker to make referrals and 
submission? Appendix F will give you an indication of the 10 or 
so bills that have been referred so far in this session. There 
will be the Technical Corrections Act, for example, referred to 
the select committee which has been reported and which has not 
had to undergo a sequential referrals. There are other bills 
where the select committee is primary on the bill.
    As the chairman knows, when the Republicans became the 
majority party in 1995, a mandate was placed on the Speaker to 
refer bills, to choose a primary committee. Only in this 
Congress was there an extraordinary exception written in where 
there are such jurisdictional overlaps that the notion of 
primacy really isn't that important. The notion of primacy 
isn't as essential as the lobbying community and others might 
believe because additional original committees can get started 
on oversight and on the legislative function of ``matters 
within their respective jurisdictions.'' That admonition on 
every introduced bill is de facto a rule that governs various 
standing committees' considerations of matters within their 
respective jurisdictions. So as bills come in, consolidated, 
complicated bills where we may have had to choose a primary 
committee, yet committees B, C and D may be additional initial 
committees but they are not restricted in terms of time, 
conducting oversight or producing a legislative work product. 
Even if committee A, the so-called primary committee, reports, 
which would then force the Speaker to make sequential referrals 
or to impose time limits on the additional original committees, 
those times can be sufficiently long to in effect turn 
committees B's jurisdictional claim into truly a primary claim. 
So this notion of primacy, while it makes sense being in the 
rule, forces us to try to understand each bill as to where the 
primary emphasis is being placed, yet there is a whole lot of 
flexibility with respect to the other committees.
    When you superimpose a new decision-making process; namely, 
a select committee which has jurisdiction over ``matters 
relating'', some may say, well, if it is not in last year's 
bill, if you are not directly amending language already in last 
year's law, it doesn't necessarily relate. Others, as reflected 
in referrals already made, suggest that matters which should 
have been consolidated into the department and even though they 
weren't, are still ``matters relating to.'' There is a 
legitimate jurisdictional claim in that respect.
    Where we are headed jurisdictionally, Mr. Chairman, is not 
for me to predict. There may be others, political scientists 
and certainly Members, who will want to focus on whether or not 
a standing committee with consolidated jurisdiction in this or 
the next Congress or in a future Congress makes more sense than 
the perpetuation, if at all, of a select committee with similar 
jurisdictions. There are clearly options.
    Let me just invite all Members, whether it is the 
distinguished group here or any Member of the House, to 
understand that oversight is a difficult operation. There isn't 
enough time in the week. I have facetiously commented here on 
doing oversight on a Monday and with certainly a quorum 
present. This isn't just two members to take testimony, this 
participation is impressive. It needs to be kept in mind that 
oversight is painstaking and it is a collegial function that 
Members should conduct. Staff can compile and, can advise, but 
it is the Members' attention to detail and the way it dovetails 
into the need for a revitalization of the authorization 
process, not just confined to homeland security, all of those 
issues are going to be presented to you in considerable detail. 
But ultimately I believe whether you conduct oversight or 
whether you legislate, it becomes a matter of will. The rules 
currently allow sufficient oversight. You don't have to worry, 
I don't believe, about new rules empowering committees to 
conduct more oversight. The rules are there. It is a matter of 
will and finding the time.
    Our office nonpartisan, we make referrals based on 
precedents, and the Speaker has taken a very personal interest 
in referrals of bills in this Congress. He made the 
extraordinary presentation, as you will recall, before he took 
the oath of office, reminding the Members that a rules package 
not even yet presented would create this select committee. He 
advised Members that the standing committees would retain 
oversight and legislative jurisdiction. So he laid down a 
marker before he even took the oath of office.
    Then Chairman Dreier, managing the rule, supplemented that 
commitment both to the standing committees conducting oversight 
and legislative responsibility, but then inviting this new 
select committee to be the eyes and ears of the Congress and to 
exert legislative jurisdiction where appropriate, as determined 
by the Speaker. So those are terms of art where that I can't 
fully predict the patterns of referral--each bill obviously 
will be reviewed on its merits. Our office is available on a 
sustained basis to your panel and to all the Members to give 
advice, we hope consistent advice, but I can assure you 
nonpartisan advice, if not the best advice, but nonpartisan 
advice on patterns of referral because the referrals that are 
being made now may well become precedent in future Congresses.
    So with that, I will certainly be available for questions.

                PREPARED STATEMENT OF CHARLES W. JOHNSON

    Mr. Chairman; It was almost precisely ten years ago (on May 18, 
1993 to be exact) that my beloved predecessor as Parliamentarian, Mr. 
Wm. Holmes Brown, appeared before the Joint Committee on the 
Organization of Congress to testify regarding a broad range of issues 
relating to floor deliberations and scheduling. In appearing be fore 
your subcommittee today, I have been asked to bring to your attention 
some of the relatively recent difficulties that have confronted the 
House as it has considered committee jurisdictional reform, as well as 
observations concerning current jurisdictional overlaps relating to the 
issue of Homeland Security.
    Included in Mr. Brown's prepared statement and oral testimony on 
that occasion were references to a complicated development in committee 
jurisdictions in the House as of that date, especially since House 
consideration of the Committee Reform Amendments of 1974 and the 
multiplicity of referrals which had resulted since the Speaker was 
mandated to begin multiple referrals. On that occasion Mr. Brown 
inserted. in the Joint Committee's hearing record a chart depicting 
``major committee jurisdictional overlaps.'' I resubmit that chart (A) 
for your hearing record, with the reminder that many subsequent 
jurisdictional overlaps have emerged since 1993, too numerous to be 
documented here. I also submit a second chart (B) showing the mini mal 
jurisdictional realignments resulting from the adoption on October 8, 
1974, of the Democratic Caucus originated ``Hansen'' substitute for the 
``Bolling'' select committee consolidations, for your committee's 
hearing record. Suffice it to say that on that occasion in 1974, the 
House retained fragmented committee jurisdictions within rule X, but 
almost by inadvertence included a multiple referral mandate on the 
Speaker which had been taken from the ``Bolling'' Committee's 
recommendation. The only change was to strike a mechanism for appeal of 
the Speaker's referrals to the Committee on Rules. There is no 
discernible legislative history to indicate that the House, by adopting 
the ``Hansen'' substitute deliberately chose to impose the requirement 
for multiple referrals while retaining essentially the same 
fragmentation and overlap of committee jurisdictions as had existed up 
to that point, beyond an intent to strip the Rules Committee of any 
appellate authority over Speaker's referrals. After all, the 
``Bolling'' recommendation had suggested a procedure for multiple 
referrals only in the unlikely event that the consolidation and 
modernization of jurisdiction recommended by the select committee 
failed to fully place within one committee the jurisdictional issues 
presented by any particular bill. I also submit citations (C) from the 
House Rules and Manual (sec.816) showing the variety of referrals which 
have been made by Speakers since 1975, including three occasions in the 
1970s when the House established ad hoc select committees to receive 
recommendations from standing committees on matters relating to energy 
and the outer continental shelf. It should also be noted that the use 
of ``task forces'' consisting of various House committees and reporting 
their work pro duct to the Rules Committee became popular in recent 
years and is well documented in CRS Report for Congress RS20421, dated 
Dec.28, 1999.
    On one subsequent occasion since 1974 the House in response to the 
recommendations of a select committee realigned standing committee 
jurisdictions, but not without some difficulty. In 1980, the House 
considered a resolution reported from a Select Committee on Committees 
which had recommended the creation of a new standing Committee on 
Energy, partially in response to the energy crisis and the 
establisbment of the Department of Energy and consequent reorganization 
in the executive branch The Select Committee's recommendation was 
amended on the House floor to provide instead for an enlarged 
jurisdiction to be vested in the Committee on Interstate and Foreign 
Commerce, (renamed Energy and Commerce) with new referrals of 
jurisdiction as the primary energy committee including jurisdiction 
over ``general management'' of the Department as an entity, but this 
action was accompanied by a memorandum of understanding attempting to 
clarify the resulting jurisdictions of the Committees on Science and 
Technology, Interior and Insular Affairs, Armed Ser vices and Foreign 
Affairs. In other words, the Select Committee's recommendation to 
create a new standing committee on energy was replaced by retention of 
fragmented jurisdiction among several existing standing committees.
    Other realignments of standing committee jurisdictions have 
occurred at the organization of new Congresses, where the majority 
party conference has recommended jurisdictional changes as part of the 
adoption of rules on opening day. I recall the creation of the 
Department of Transportation in the late 1960s. Incrementally there 
after, the House in adoption of its rules from the majority caucus on 
opening day accomplished a consolidation of committee jurisdiction. 
Whereas at the time of creation of the Department, Public Works had 
jurisdiction over highways and civil aviation, Banking had jurisdiction 
over urban mass transit, Commerce had jurisdiction over rail roads and 
Merchant Marine and Fisheries had jurisdiction over maritime 
transportation, those various aspects have been gradually consolidated 
under the umbrella of the Committee on Transportation and 
Infrastructure following the demise of certain transportation 
regulatory independent agencies that remained in place after the 
creation of DOT. The House Rules and Manual (sec.739) shows the dates 
of those transfers as eventual responses to an executive 
reorganization.
    The two most recent significant changes were in 1995, when the 
standing Committees on the District of Columbia, Merchant Marine and 
Fisheries, and Post Office and Civil Service were abolished and their 
functions transferred to other existing committees, and in 2001 when 
securities and insurance generally jurisdictions were transferred from 
the Committee on Energy and Commerce to the Committee on Financial 
Services. Neither of these recommendations emerged from a select or 
joint committee established by the House. In fact, the Joint Committee 
on the Organization of the Congress, in its wide ranging report to the 
House (H. Rept. 103-413) refrained from any suggestions as to House or 
Senate committee jurisdictional realignments, Rather, the joint 
committee only recommended that the Committee on Rules might consider 
subsequent abolitions of committees if ``membership on a committee 
falls below half if its level during the 103rd Congress.''
    In the last Congress a predecessor Select Committee on Homeland 
Security was established (H.Res.449) to receive recommendations from 
the several standing committees of legislative jurisdiction with 
respect to the creation of a new Department of Homeland Security. I 
submit for your record a table of contents (D) of the materials soon to 
be published as the hearings of that select committee, including the 
legislative recommendations of the eleven standing committee and one 
permanent select committee (on Intelligence). Your committee will be in 
possession of these hearings when they are published. From these 
extensive materials, as well as from the testimony in those hearings, 
you will be able to glean the respective jurisdictional concerns as ex 
pressed by those committees in the last Congress, which include 
concerns about dual missions of agencies such as the Coast Guard, 
Customs Service, and Immigration and Naturalization Service. As you 
know, the Select Committee on Homeland Security in the last Congress 
incorporated some of those legislative recommendations into the bill H 
.R. 5005, while leaving other recommendations for possible subsequent 
consideration. I also submit a list (E) of the various committee 
activity reports in the last Congress which further express the 
concerns of those committees.
    On the opening day of this Congress Speaker-elect Hastert made the 
following statement to the House before taking the oath of office: 
``Later on today, we will vote to create a Select Committee on Homeland 
Security. Members of this select committee will oversee the creation of 
the Department of Homeland Security to make certain that the executive 
branch is carrying out the will of the Congress. This select committee 
will be our eyes and our ears as this critical department is organized. 
The standing committees of the House will maintain their jurisdictions 
and will still have authorization and oversight responsibilities. This 
House needs to adapt to the largest reorganization of our executive 
branch in 50 years, and this select committee will help us make this 
transition.''
    Later on opening day Rep. Dreier, in debating the proposed rules 
package, stated:
    ``Mr. Speaker, section 4 of the resolution is very important and 
significant, and is aimed at ensuring effective oversight of a crucial 
national priority, and that is what was discussed in the Speaker's 
address to us namely, homeland security. The security threats to our 
Nation are real and dangerous, Every branch of government, including 
the Congress, must be an integral part of the homeland security effort.
    ``In that regard, section 4 of the resolution establishes a Select 
Committee on Homeland Security for the 108th Congress with both 
legislative and oversight responsibilities.
    ``The select committee would have legislative jurisdiction over 
matters that relate to the Homeland Security Act of 2002 FL. 107-296. 
As the Act is the organic statute creating the new Department of 
Homeland Security, it is anticipated that the select committee would be 
the committee of jurisdiction over bills dealing with the new 
Department.
    ``Further, the select committee would have jurisdiction over 
legislation amending the Act such as a bill making technical 
corrections to that Act. In addition to the committee of primary 
jurisdiction, the Speaker would have the authority to refer bills to 
the select committee as an additional committee, either initially or 
sequentially. Otherwise, the existing jurisdictional rules of the House 
would continue to apply during the 108th Congress.
    ``The select committee would have oversight responsibility over 
laws, programs and government activities relating to homeland security 
and is intended to serve as the pri maw coordinating committee of the 
Rouse.
    ``Mr. Speaker, until the new Department of Homeland Security is up 
and running, it is difficult to predict how best to reflect legislative 
oversight and authorization functions for the Department in the House, 
Furthermore, during this transitional period, it is crucial that the 
White House and the new Department's leadership have a central point of 
contact with the House.
    This new select committee will provide this interim capacity.''
    Mr. Chairman, this recitation of the recent jurisdictional history 
of the House, while underscoring the complexities of multiple 
referrals, should be read in light of the consistent tradition of the 
House to depoliticize the referral process. To this end all recent 
Speakers have delegated to the Parliamentarian the authority to 
determine the validity of committees' jurisdictional claims, based on 
consistent interpretations of Rule X and upon the application of past 
referrals as precedent. It is apparent that Rule X (which establishes 
standing committees'jurisdictions) does not at this time textually 
mirror executive branch reorganizations in the second half of the 
twentieth century or substantive issues arising in the modem world! 
Precedent, practice and understandings recommended by the 
Parliamentarian in consultation with all the committees of the House 
have managed this disparity or asymmetry through a mechanism of 
multiple referrals in a nonpartisan way.
    At this point I would include a chart (F) showing the few referrals 
made in the 108th Congress of bills to the new Select Committee. On May 
15, 2003, the Select Committee filed its initial report with the House 
on HR. 1416, making technical corrections in the 2002 Homeland Security 
Act, which bill was not referred to any other committee. I also include 
a chart (G) showing some of the jurisdictional oversight and 
legislative authorities retained by the various standing committees 
over functions and organizations of the new Department of Homeland 
Security. It should be emphasized, as stated by Rep. Dreier, that under 
the Speaker's referral authority both as stated in the standing rules 
and specifically in section 4 of H.Res,5, the Speaker has discretion to 
refer matters either initially or sequentially to the select committee. 
Each introduced bill will continue to be scrutinized to discern the 
legitimate jurisdictional claims of the standing committees and of the 
select committee, either on an initial or sequential referral basis.
    To this end, five permanent committees of the House have 
reorganized themselves in this Congress to create subcommittees 
specifically having jurisdiction over matters relating to homeland 
security. They include the standing Committees on Appropriations, Armed 
Services, International Relations, and the Judiciary and the Permanent 
Select Committee on Intelligence.
    I believe that the rules of the House provide adequate authority 
for all committees to conduct effective oversight over matters within 
their respective jurisdictions. Section 4(c) of H. Res. 5 in the 108th 
Congress incorporates by reference those provisions of rule X which 
govern standing committees and subcommittees and makes them applicable 
to the select committee, Therefore effective oversight becomes a matter 
of institutional and ultimately political will. I congratulate the 
subcommittee for beginning this hearing on a Monday, and in a collegial 
fashion with a proper quorum present. Clearly committees can gather 
information in the pursuit of oversight by staff and electronic means, 
but proper oversight by Congress remains a collegial function to be 
conducted by Members. The scheduling of votes only on certain days in 
the House, and Members' desire to be in their districts work as a 
counterforce to the conduct of oversight. Oversight, and the proper 
restructuring and implementation of the authorization process, require 
time and attention, especially in the face of competing priorities 
toward consolidation and modernization of standing committee 
jurisdiction on the one hand with retention of legitimate jurisdictions 
over non-homeland security related missions of some of those same 
entities within the new Department on the other.
    I commend to the attention of the subcommittee the book entitled 
``Congress Against Itself'' written by Mr. Roger H Davidson and Mr. 
Walter J. Oleszek in 1976 as an analysis of the efforts taken by the 
House in 1974 on committee jurisdictional reform and earlier 
jurisdictional reforms. The committee is to be commended for obtaining 
the services of Mr. Oleszek. His preface to that book could serve as an 
inspiration and guide to your committee.

    ATTACHMENT A: MAJOR COMMITTEE JURISDICTIONAL OVERLAPS

    Agriculture (Agri)
    <bullet> with NB on forests, multiple use areas
    <bullet> with BF and EC on commodities exchanges and futures 
regulation
    <bullet> with EC on food purity; poultry inspections with EL on 
food nutrition and feeding programs
    <bullet> with PA on CCC food distribution abroad with EC and PIMP 
on fish inspection, fish farming
    <bullet> with PW on stream and soil erosion

    Appropriations
    Armed Services (AS)
    <bullet> with BC on naval petroleum reserves
    <bullet> with EC, NR or ST on nuclear issues (where military 
applications at issue)
    <bullet> with EC on Superfund clean of military bases
    <bullet> with FA on arms control inspections, NATO (and status of 
forces), export licenses
    <bullet> with VA on educational programs
    <bullet> with BF and EL on defense economic conversion
    <bullet> with BF on defense production

    Banking, Finance and Urban Affairs (BF)
    <bullet> with EC on bank powers in new fields like securities and 
insurance; insurance industry regulation generally
    <bullet> with WM on government securities initial issuance
    <bullet> with PW on regional commissions; disaster insurance
    <bullet> with ST on earthquake insurance
    <bullet> with AS on defense production

    Budget
    District of Columbia (DC)
    <bullet> with PW on regional transportation (Metro)

    Education and Labor (EL)
    <bullet> with Ways & Means on ERISA
    <bullet> with Agri on certain feeding programs; land grant colleges
    <bullet> with WM on workfare (work incentive) requirements
    <bullet> with EC and PW on labor disputes also involving railway or 
airline labor laws (where EC and PW now exclusive)
    <bullet> with Jud on prison labor

    Energy and Commerce (EC)
    <bullet> with AS, NR, ST on energy policy, authorizations for Dept 
of Energy
    <bullet> with NB on regulation of commercial nuclear industry, 
nuclear waste disposal.
    <bullet> with PW on Superfund, transportation issues involving rail 
roads, magnetic levitation, automobile and other commercial vehicle 
safety standards
    <bullet> with WM on health (part B medicare especially)
    <bullet> with Agri and MMF on fish and food inspection
    <bullet> with Agri on FIFRA; Food, Drug and Cosmetic Act with ST on 
research and development ``commercialization''; standardization
    <bullet> with PA and BF on foreign investment in US

    Foreign Affairs (PA)
    <bullet> with SST and MMF on global environmental issues
    <bullet> with MMF on fishing and whaling agreements with Agri on 
food distribution overseas
    <bullet> with AS on arms control, export licenses, weapons 
inspection, NATO
    <bullet> with NR on status of Micronesia and trust territories

    Government operations (GO)
    <bullet> with any committee on new commissions, subdepartmental 
reorganizations
    <bullet> with Rules on budget process changes
    <bullet> with PW on public buildings regulation
    <bullet> with EC on indoor clean air
    <bullet> with JU on ``takings'' and administrative procedure
    <bullet> with AS on defense contracting procedures and standards

    House Administration (HA)
    <bullet> with EL or PO on labor issues involving House employees
    <bullet> with EC or Po on broad campaign reform
    <bullet> with Rules on Rule 51

    Judiciary (Jud)
    <bullet> with EC on copyright issues in cable, digital audio, drug 
patents
    <bullet> with EC on telecommunications regulation: antitrust; 
insurance regulation antitrust; insurance regulation (McCarran 
Ferguson)
    <bullet> with PW on certain interstate compacts

    Merchant Marine (MM)
    <bullet> with NR on outer continental shelf, endangered species, 
Alaska; oil exploration
    <bullet> with PW on clean water, ocean dumping, oil spill, 
wetlands, coastal zone management; intermodal transportation
    <bullet> with EC, AG, PW, ST on EPA
    <bullet> with NR and FA deep seabed mining

    Natural Resources (NR)
    <bullet> with EL or EC on Indian issues
    <bullet> with Agri on forests
    <bullet> with MMF on OCS, public domain wildlife refuges

    Post Office and Civil Service (PC)
    <bullet> with JUD on judicial branch salaries
    <bullet> with HA On legislative branch salaries
    <bullet> with others on new departmental positions

    Public Works and Transportation (PW)
    <bullet> with MM on clean water, ocean dumping, oil spill, 
wetlands, intermodal transportation
    <bullet> with EC on maglev, commercial vehicle safety, Supeerfund
    <bullet> with NR on Kennedy Center

    Rules
    bills with expedited procedures
    <bullet> with GO on budget process
    <bullet> with HA on Rule 51

    Science, Space and Technology (ST)
    <bullet> with EL on science education and scholarships, technical 
training, etc
    <bullet> with EC on commercialization of research and development
    <bullet> with EC and NR on Dept of Energy
    <bullet> with PA and MMF on Antarctica
    <bullet> with Jud on antitrust protection for r&d businesses

    Small Business (SB)
    <bullet> with AS and GO on contracting setasides (and other 
committees on agency apecific basis)

    Veterans Affairs (VA)
    <bullet> with AS on educational benefits

    Ways and Means (WM)
    <bullet> with EC on health and domestic content
    <bullet> with EL on ERISA, welfare
    <bullet> with BF on public debt management, issuance of notes
    <bullet> with BF, MMF, NR, PW and others on fees and assessments 
(revenue)
    Addendum to ``Major committee jurisdictional overlaps''
    Committee re-designations:

    Banking, Finance, and Urban Affairs was re-designated as Financial 
Services.
    Education and Labor was re-designated as Education and the 
Workforce.
    Foreign Affairs was re-designated as International Relations.
    Government Operations was re-designated as Government Reform.
    Natural Resources was re-designated as Resources.
    Public Works and Transportation was re-designated as Transportation 
and Infrastructure.
    Science, Space and Technology was re-designated as Science.
    Committee re-alignments:

    District of Columbia abolished. Its jurisdiction was transferred to 
Government Reform.
    Merchant Marine was abolished. Its jurisdiction was transferred to, 
among others, Armed Services, Resources, and Transportation and 
Infrastructure.
    Post Office and Civil Service was abolished. Its jurisdiction was 
transferred to Government Reform.
    Major jurisdictional transfers:

    Jurisdiction over ``securities and exchanges'' was transferred from 
Energy and Commerce to Financial Services.
    Jurisdiction over various budget proceedings was transferred from 
Government Operations to Budget.
    Jurisdiction over ``insurance generally'' was vested in Financial 
Services.

    ATTACHMENT B: SUMMARY OF MAJOR CHANGES IN RULES X AND XI OF THE 
RULES OF THE HOUSE OF REPRESENTATIVES

    Dated: October 10, 1974
    A copy is maintained in the Committee Files.

    ATTACHMENT C: RULE XII RECEIPT AND REFERRAL OF MEASURES AND MATTERS

    A copy is maintained in the Committee Files.

    ATTACHMENT D:

    CONTENTS

    Testimony of:
        The Honorable CW. Bill Young, Chairman, Committee on 
        Appropriations
        The Honorable David B. Obey, Ranking Minority Member, Committee 
        on Appropriations
        The Honorable Ike Skelton, Ranking Minority Member, Committee 
        on Armed Services
        The Honorable W.J. (Billy) Tauzin, Chairman, Committee on 
        Energy and Commerce
        The Honorable John D. Dingell, Ranking Minority Member, 
        Committee on Energy and Commerce
        The Honorable Dan Burton Chairman, Committee on Government 
        Reform
        The Honorable Henry A. Waxman, Ranking Minority Member, 
        Committee on Government Reform
        The Honorable Porter J. Cogs, Chairman, Permanent Select 
        Committee on Intelligence
        The Honorable Nancy Pelosi, Ranking Minority Member, Permanent 
        Select Committee on Intelligence
        The Honorable Henry Hyde Chairmen, Committee on International 
        Relations
        The Honorable Tom Lantos Ranking Minority Member, Committee on 
        International Relations
        The Honorable Sherwood L. Boehlert, Chairman, Committee on 
        Science
        The Honorable Ralph M. Hall, Ranking Minority Member, Committee 
        on Science
        The Honorable Don Young, Chairman, Committee on Transportation 
        and Infrastructure
        The Honorable James I. Oberstar, Ranking Minority Member, 
        Committee on Transportation and Infrastructure
        The Honorable William M. Thomas, Chairman, Committee on Ways 
        and Means
        The Honorable David M. Walker, Comptroller General, General 
        Accounting Office
        Material Submitted for the Record:

        Opening Statements of Select Committee Members
        Statement of the Honorable Michael C. Oxley, Chairman, 
        Committee on Financial Services
        Appendix Recommendations of the Standing Committees:

        Committee on Agriculture
        Committee on Appropriations
        Committee on Armed Services
        Committee on Energy and Commerce
        Committee on Financial Services
        Committee on Government Reform
        Permanent Select Committee on Intelligence
        Committee on International Relations
        Committee on the Judiciary
        Committee on Science
        Committee on Transportation and Infrastructure
        Committee on Ways and Means

    ATTACHMENT E: LEGISLATIVE HISTORY OF H.R. 5005

    Department of Homeland Security (DHS)
    H.R. 5005, a bill to establish the Department of Homeland Security, 
was referred to the Select Committee on Homeland Security and in 
addition to 12 committees (Agriculture, Appropriations, Armed Services, 
Energy and Commerce, Financial Services, Government Reform, 
Intelligence (Permanent Select), International Relations, the 
Judiciary, Science, Transportation and Infrastructure, and Ways and 
Means) in each case for consideration of such matters as fall within 
their jurisdiction. Pursuant to House Resolution 449, the additional 
committees provided recommendations on the bill to the Select 
Committee. The Select Committee then reported the bill to the House (H. 
Rept. 107-609). The recommendations of the additional committees are to 
be compiled into an appendix to a Select Committee hearing transcript. 
In the interim, the following materials may be helpful to tracking 
individual committee action on the bill.
      

----------------------------------------------------------------------------------------------------------------
          Document Type                   Number/Record Cite                           Committee
----------------------------------------------------------------------------------------------------------------
Committee Report on HR. 5005      107-609, pt. 1                      Select Committee on Homeland Security
----------------------------------------------------------------------------------------------------------------
Activities Report                 December 16, 2002                   Select Committee on Homeland Security
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-793                             Committee on Transportation and
                                                                       Infrastructure
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-807                             Committee on the Judiciary
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-802                             Committee on Energy and Commerce
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-801                             Committee on Ways and Means
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-796                             Committee on Agriculture
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-809                             Committee on Science
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-805                             Committee on Government Reform
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-803                             Committee on International Relations
----------------------------------------------------------------------------------------------------------------
Activities Report                 107-791                             Committee on Armed Services
----------------------------------------------------------------------------------------------------------------
*The Committees on Appropriations and Financial Services, and the Permanent Select Committee on Intelligence
  forwarded recommendations to the Select Committee without formal meetings.


    ATTACHMENT F: BILLS REFERRED TO THE SELECT COMMITTEE ON HOMELAND 
SECURITY AS OF MAY 15, 2003.

    Bills amending the Homeland Security Act of 2002
    H.R. 1416, introduced by Rep. Cox, was referred to the Select 
Committee on Homeland Security. It made various technical corrections 
to the Act.
    H.R. 484, introduced by Rep. Ose, was referred primarily to the 
Select Committee on Homeland Security, and additionally to the 
Committees on Energy and Commerce, Science, and Government Reform. It 
amended the Homeland Security Act of 2002 in several respects regarding 
a homeland security research program, a vaccine injury program, and 
procurement for the Department of Homeland Security.
    H.R. 853, introduced by Rep. Slaughter, was referred primarily to 
the Select Committee on Homeland Security, and additionally to the 
Committee on the Judiciary, Transportation and Infrastructure, and Ways 
and Means. It established a Northern Border Coordinator with the 
Department of Homeland Security to increase border security.
    H.R. 1355, introduced by Rep. DeLauro, was referred primarily to 
the Committee on Government Reform, and additionally to the Select 
Committee on Homeland Security. It addressed restrictions on the 
Department of Homeland Security contracting with certain foreign 
incorporated entities.
    H.R. 1389, introduced by Rep. Crowley, was referred primarily to 
the Committee on Transportation and Infrastructure, and additionally to 
the Select Committee on Homeland Security and the Committees on Science 
and the Judiciary. It required, among other matters, a program of 
assistance by the Secretary of Homeland Security to state and local 
first responders.
    H.R. 1449, introduced by Rep. Millender-McDonald, was referred 
primarily to the Committee on Transportation and Infrastructure, and 
additionally to the Select Committee on Homeland Security. It expanded 
the role of the Office for Domestic Preparedness to include making 
grants to local first responders.
    Bills not amending the Homeland Security Act of 2002

    H.R. 277, introduced by Rep. Goode, was referred primarily to the 
Committee on Armed Services, and additionally to the Select Committee 
on Homeland Security. It amended Title 10, United States Code, to allow 
the assignment of members of the armed forces to assist various bureaus 
of the Department of Homeland Security in border security. It also 
required the Secretary of Homeland Security, along with the Secretary 
of Defense, to provide training for such members.
    H.R, 1007, introduced by Rep. McNulty, was referred primarily to 
the Committee on Transportation and Infrastructure, and additionally to 
the Select Committee on Homeland Security and the Committees on the 
Judiciary and Energy and Commerce. It directed the Secretary of 
Homeland Security to make homeland security grants to localities for 
firefighters, first responders, and law enforcement.
    H.R. 1010, introduced by Rep. Nadler, was referred primarily to the 
Committee on Transportation and Infrastructure, and additionally to the 
Select Committee on Homeland Security and the Committee on Ways and 
Means. It required the Department of Homeland Security and the Customs 
Service to inspect cargo on vessels entering domestic ports.
    H.R. 2122, introduced by Rep. Tauzin, was referred primarily to the 
Committee on Energy and Commerce, and additionally to the Select 
Committee on Homeland Security and the Committee on Government Reform. 
It established a program of research, procurement, and deployment of 
biomedical countermeasures managed primarily by the Departments of 
Homeland Security and Health and Human Services.

    ATTACHMENT G: DEPARTMENT OF HOMELAND SECURITY (DHS)

    Pursuant to section 4 to Public Law 107-296, the Department of 
Homeland Security (DHS) was established on January 24, 2003. P.L. 
10F296 provided for the transfer of several disparate government 
entities into the new department and allowed the President to submit a 
reorganization plan and subsequent modifications thereof. This 
jurisdictional breakdown is limited to the major entities transferred 
under the law, the Reorganization Plan, and subsequent modifications 
(House Documents 108-16 and 108-32). Interested parties should consult 
those documents for specific details on entities being transferred.
    Reporting directly to the Secretary

    Secret Service - Committee on the Judiciary and Committee on 
Transportation and Infrastructure
    Coast Guard - Committee on Transportation and Infrastructure
    Border and Transportation Security directorate

    Customs - Committee on Ways and Means
    Immigration and Naturalization Service (INS) - Committee on the 
Judiciary
    Federal Protective Service - Committee on Transportation and 
Infrastructure
    Transportation Security Administration (TSA) - Committee on 
Transportationand Infrastructure
    Federal Law Enforcement Training Center - Committee on the 
JudiciaryAnimal and Plant Health Inspection Service (APHIS) -. 
Committee on
    Agriculture
    Office for Domestic Preparedness - Committee on the Judiciary
    Emergency Preparedness and Response directorate

    Federal Emergency Management Agency (FEMA) - Committee on 
Transportation and Infrastructure
    Strategic National Stockpile and the National Disaster Medical 
System - Committee on Energy and Commerce
    Nuclear Incident Response Team - Committee on Energy and Commerce
    Domestic Emergency Support Teams - Committee on the Judiciary
    Science and Technology directorate

    CBRN Countermeasures Programs - Committee on Science
    Environmental Measurements Laboratory - Committee on Science
    National BW Defense Analysis Center - Committee on Armed Services
    Plum Island Animal Disease Center - Committee on Agriculture
    Information Analysis and Infrastructure Protection directorate

    Critical Infrastructure Assurance Office - Committee on Science
    Federal Computer Incident Response Center - Committee on Science
    National Communications System - Committee on Armed Services
    National Infrastructure Protection Center - Committee on the 
Judiciary
    Energy Security and Assurance Program - Committee on Science

    Department of Homeland Security (DI-IS)
    Pursuant to section 4 of Public Law 107-296, the Department of 
Homeland Security (DI-IS) was established on January 24, 2003. P.L. 
107-296 provided for the transfer of several disparate government 
entities into the new department and allowed the President to submit a 
reorganization plan and subsequent modifications thereof. This 
jurisdictional breakdown Is limited to the major entities transferred 
under the law, the Reorganization Plan, and subsequent modifications 
(House Documents 108-16 and 108-32). Interested parties should consult 
those documents for specific details on entities being transferred.

    Committee on Agriculture
    Animal and Plant Health Inspection Service (APHIS) - responsible 
for protecting and promoting U.S. agricultural health, administering 
the Animal Welfare Act, and carrying out wildlife damage management 
activities.

    Committee on Armed Services
    National Bio-Weapons Defense Analysis Center - information source 
for chemical warfare (CW) and chemical and biological defense (CBD) 
science and technology.
    National Communications System (DOD) - national security and 
emergency preparedness communication.

    Committee on Energy and Commerce
    Strategic National Stockpile and the National Disaster Medical 
System
    (HHS) - public health emergency readiness.
    Nuclear Incident Response Team (DOE) - expert personnel that deal 
withnuclear emergencies, nuclear accidents, and nuclear terrorism.

    Committee on the Judiciary
    Secret Service - protection of persons, see also Transportation and 
Infrastructure.
    Immigration and Naturalization Service (INS) - immigration and 
naturalization issues Federal Law Enforcement Training Center 
(Treasury) - law-enforcement training.
    Office for Domestic Preparedness (DOJ) - responsible for state and 
local jurisdictions response to incidents of domestic terrorism.
    Domestic Emergency Response Teams (DOJ) - stand-by interagency team 
that provides advice and support to FBI commanders at crisis scene 
National Infrastructure Protection Center (FBI) - terror threat 
evaluation and public warning.

    Committee on Science
    CBRN Countermeasures Programs (DOE) research on chemical, 
biological, radiological, and nuclear countermeasures.
    Environmental Measurements Laboratory (DOE) - advances and applies 
the science and technology required for preventing, protecting against, 
and responding to radiological and nuclear events in the service of 
Homeland and National Security.
    Critical Infrastructure Assurance Office (Commerce) - general 
cybersecurity. Federal Computer Incident Response Center (GSA) - 
federal government cybersecurity.
    Energy Security and Assurance Program (DOE) - using science and 
technology to secure energy infrastructure.

    Committee on Transportation and Infrastructure
    Secret Service - protection of certain foreign missions and other 
buildings within D.C., see also Judiciary.Coast Guard - maritime 
responsibilities ranging from maritime safety to national defense.
    Federal Protective Service - protection of federal buildings.
    Transportation Security Administration (ISA) - provides security 
across all modes of transportation.
    Federal Emergency Management Agency (FEMA) - disaster preparedness, 
management, and relief.

    Committee on Ways and Means
    Customs Service - enforcer of trade laws and treaties and certain 
law- enforcement responsibilities.

    Mr. Diaz-Barlart. Very instructive. Enjoyed your testimony 
very much. I want to welcome the distinguished chairman and 
ranking member of the full committee for joining us, Mr. Cox 
and Mr. Turner. We are honored with your presence. Thank you 
very much for joining us as we learn and think out loud.
    Mr. Johnson, you mentioned what has become pretty evident 
in terms of the, let's say, the weakening of the authorizing 
process. Do you have any ideas on how we could revitalize the 
authorizing process?
    Mr. Johnson. We are a bicameral system, and to a certain 
extent I would have to observe that efforts made on the House 
side to perpetuate and validate the authorizing process have 
not been matched on the Senate side. It is easier for the 
Senate to incorporate legislative provisions into must pass 
appropriation bills, than to enter a full blown consideration 
of Senate and then conference authorization matters. Beyond 
that, the timetable contemplated in the rules, contemplate 
authorizations enacted into law, not just passed by the House. 
The Rules Committee often grants waivers of points of order, 
very often on appropriation bills, where all or some of the 
funding in those bills has not yet been authorized by law for 
the fiscal year in question. I know this dovetails into the 
issue of biennial budgeting. There are a lot of different 
approaches to it, I don't advocate one necessarily over the 
other, but I think there needs to be more attention paid to the 
work product of authorizing committees, consistent with the 
multiplicity of referrals that we often get on authorization 
bills, but also consistent with the leadership's desire to 
program bills throughout the year as they become available.
    Now, prior to the Republicans being in the majority, I can 
remember in the late 1980s, early 1990s, the Democratic whip 
saying we need to have a full schedule in the early part of the 
year. The pattern began to be set of bills coming out of the 
authorizing committees and going quickly to the floor without 
timely or lengthy sequential referrals but with so-called task 
forces. Speaker Wright become enamored of the notion of ``task 
force'' recommendations. I would mention there is a good paper 
from CRS on what was then the proliferation of task forces in 
the early 1990s. But it has given way I think more often these 
days to an exchange of correspondence between the primary 
committee and various potential sequential committees while 
foregoing jurisdictional claims. Virtually every authorization 
bill that is initially reported is accompanied by some 
correspondence between the various committees temporarily 
relinquishing a jurisdictional claim but still asserting it and 
asking to be considered as conferees. The notion of the 
authorization process being a legitimate separate decision-
making tier in the process of decision-making, when the budget 
process was superimposed as a separate level of decision-making 
in addition to the authorization process, it just really 
compressed the available time that Members have over the course 
of the year to give full attention to the authorization 
process. Part of it is a House-Senate relationship, part it was 
perhaps the leadership being more sensitive to allowing the 
authorization process to play out if they could started in a 
timely way, to consider whether the 3-day availability rule 
should be routinely waived as opposed to allowing Members 
legitimate time to review the authorizing committees' reports.
    In other words, Mr. Chairman, I have no complete answer. It 
is a matter of planning through the leadership and the various 
committees, both in conducting oversight and legislative 
responsibilities, to systematically and properly schedule over 
the course of the 2-year period.
    Mr. Diaz-Barlart. You spoke at some length about multiple 
referrals. In your view, are there ways to strengthen the 
Speaker's referral authority or does he have as much authority 
as he needs?
    Mr. Johnson. I think he has all the authority he needs. I 
mean we have seen it reflected, as I say, in the many 
sequential referrals where decisions are deferred until the 
primary committee has a work product. We have seen three 
examples of an ad hoc select subcommittee, first Energy and 
then twice regarding the Continental Shelf, where the House 
endorsed the notion of bringing the standing committees 
immediately together within an ad hoc select committee to 
consider a certain bill. The notion of joint referrals giving 
way to primary plus additional allows all kinds of flexibility. 
I think it is more a planning issue within the majority party 
in consultation with the minority so that effective oversight 
can precede effective authorizing. That planning has to go on 
far in advance.
    I think I would suggest to your committee, as you decide on 
the extent of your own oversight with the mandate to report to 
the Rules Committee a year from September, while you have got 
some time but don't consider that you have so much time that 
you can go backload it all.
    Mr. Diaz-Barlart. If we look at the pattern of multiple 
referrals in a specific area, for example, Homeland Security or 
Energy or Health, does that tell us anything about whether 
there is too much committee fragmentation?
    Mr. Johnson. Well, that is precisely the kind of question 
that I might be sensitive about answering. Clearly committee 
fragmentation has remained in the rules, and this pamphlet, 
which is exhibit B, shows that. In the area of Homeland 
Security submissions F and G will show fragmentation. Whether 
it is, quote, ``too much'' is a difficult question because a 
lot of these jurisdictional concerns; for example, the Customs 
Service, the Immigration and Naturalization Service, there are 
homeland and nonhomeland aspects of those agencies remaining. 
There are legitimate reasons for a standing committee to retain 
jurisdiction in perhaps more of a nonhomeland environment than 
to focus it all under one umbrella. But time is the key 
question. Is there time for all these committees to coordinate 
their legislative and oversight efforts in a meaningful way to 
bring them to the attention of the House? The recent attempts 
at reorganization, at master consolidation were inspired to 
minimize overlapping jurisdictions and Speaker's multiple 
referrals. That was the whole premise of the Bolling effort in 
1974. But if you ask to put a political explanation on it, once 
that package was reported from the select committee it was not 
called up for 6 months. In the meantime other Members were very 
active convincing their colleagues that more stood to lose 
power and influence than to gain by a huge consolidation into--
for example, energy and environment into one committee, 
combining six or seven committees' jurisdictions.
    I think that is the ultimate political test that you face. 
If you do come up with recommendations, how do you present 
those recommendations to the Rules Committee and to other 
Members? That is, I think, your biggest challenge.
    Mr. Diaz-Barlart. Ms. Slaughter.
    Ms. Slaughter. Thank you, Mr. Chairman. I look forward to 
really poring over your statement. I had a cursory view of it. 
It is very interesting.
    Let me ask about multiple referrals. Have they complicated, 
in your opinion, the conferee selection process?
    Mr. Johnson. Yes.
    Ms. Slaughter. In what ways?
    Mr. Johnson. Because there is a track record, we used to 
have major tax bills or civil rights bills where the Senate 
would add something non germane and the only House people going 
to conference were the Ways and Means members; for example, if 
there was a civil rights amendment tacked on in the Senate. So 
when there is an institutional record of jurisdictional 
referrals, although the Speaker has some flexibility on 
conference appointments, he is not a free agent because 
committees can legitimately say we were additional, original, 
joint, or sequential, we deserve representation at the 
conference table both with respect to the House version and 
with respect very often to nongermane Senate versions that have 
been added in an attempt to bypass a House committee.
    So Speakers since Speaker O'Neill have been forced to 
recognize that in appointment of conferees. Speaker Foley made 
a statement on the floor one day that he was determined to 
simplify conference appointments. He was working in the face of 
some very entrenched committee interests in those days. 
Speakers Hastert and Gingrich have found it a little easier to 
simplify conference appointments, but because of multiple 
referrals, are still forced to take into account legitimate 
jurisdictional claims, perhaps the numbers will be focused more 
toward the primary committee, but clearly subconferences with 
additional or even exclusive areas of conference jurisdiction 
have proliferated since multiple referral.
    Ms. Slaughter. Has that damaged, do you think, the 
bargaining process in the House itself among committees?
    Mr. Johnson. Conference reports then can emerge as the work 
product of a more representative group. The question then is 
does the House take cognizance of that and have time to review 
some of those very complicated conference reports. You asked 
``does the House suffer?'' Potentially no. If they are being 
presented the input of a majority of the signatures from 
Members with expertise and a variety of jurisdictions, 
presumably the House benefits. I would just suggest that the 
House would benefit even more if it has the ability to 
understand the full complexity of what is being sent to 
conference and what emerges as a conference report.
    Ms. Slaughter. What effect does it have on the Senate's 
bargaining ability?
    Mr. Johnson. Well, the Senate normally does not go to the 
extent the House does in dividing committee jurisdictions. They 
stay pretty close to the primary committee.
    Ms. Slaughter. Do you think that helps them to bargain 
together as a unit?
    Mr. Johnson. Probably. I have never really attended. I 
guess I could discern that and have more information for you. 
With each House getting one vote, the Senate conferees often go 
with proxies. The committee anti-proxy rule does not 
necessarily keep House conferees from using proxies if the two 
conferees groups together decide to allow proxies. But I think 
properly most House conferees go with members in attendance and 
obviously their signatures are required for final approval of a 
conference report. Signatures are always required. That is the 
bottom line. But my guess is that it is easier for the Senate, 
which very often uses proxies in conference, to facilitate, to 
come to a position on a particular issue more readily than the 
House, which has subgroups of conferees.
    Ms. Slaughter. This is my 17th year. I have been appointed 
to three conferences mostly before I came onto the Rules 
Committee. In every case within 24 hours it was settled with 
very little input or any consultation or, frankly, we didn't 
know what was happening in most cases. And that was always 
difficult because I think all of us want very much to be 
conferees and to be able to leave some mark on legislation on 
which we have worked. But that is a concern of mine that having 
so many House conferees, whether some committees carry so much 
more weight than others might, and that the decisions are made 
so quickly and most of us, in my view anyway, most of us 
conferees never participate at all except to show up and answer 
roll call.
    Mr. Johnson. The appropriations process is rather unique 
still because the Speakers have consistently appointed only 
appropriators to appropriations conferences. Even though the 
House and Senate versions may be loaded with legislation and 
other policy provisions, there is an unwritten rule and 
expectation that the committees of important jurisdiction will 
be at least advisers to the appropriation conferees, to 
influence their eventual bargaining on what are purely policy 
or legislative issues. So perhaps from the simplification 
standpoint, the House has acknowledged institutionally those 
bills are must-go bills, let's try to expedite conference 
procedures, but still allow the legislative committee's input 
through the appointed members. Whether that is a model to be 
followed in overall simplification is certainly worth the 
examination.
    Ms. Slaughter. I think the theory is good, but I don't 
think in practice, Mr. Johnson, it always worked that way.
    Mr. Diaz-Barlart. Ms. Dunn.
    Ms. Dunn. Thank you, Mr. Chairman. Thanks for holding this 
hearing. It is interesting to get back into motion on 
reorganization. I recall 10 years ago having served on a 
committee and I remember Mr. Ornstein and Mr. Mann testifying 
then and David Dreier's involvement. I think what stands out 
the most in my mind is the complete frustration of Chairman 
Hamilton as we tried to take our committee's recommendations to 
the floor and we really had very little opportunity to debate 
those provisions that we believed would create a bipartisan 
Congress in much better shape. As it turned out, Republicans 
took over control and on opening day and thereafter we were 
able to implement one of those many reforms, proxy voting being 
just one of those, but the open meetings act, which I was 
particularly interested in, being a very important one to bring 
openness to the Congress. That is why we can always have press 
now in our meetings unless they deal with national security or 
people's reputations.
    So I have somewhat of a sense of the limitations of what 
you can do when you reform the committees of Congress. I am one 
who would like to see broader reform come at a time when we 
have a speaker behind our effort and we have an opportunity for 
the first time in ages to create a new department that is up to 
date and in tune with today's needs, the Homeland Security 
Department. I know we have options. We don't have to move 
forward and create a new standing committee. My mind is far 
beyond that. So it is interesting to even read that that would 
be one of our options. I certainly hope we do move forward and 
create a committee that broadens jurisdiction over issues 
having to do with homeland security.
    I have a couple of questions, and one of those I guess is 
can we create a committee with meaningful jurisdiction 
considering the difficulties we already have had in putting 
this one together with jurisdictional concerns. What do you 
think?
    Mr. Johnson. A black letter rewrite of rule X to say, yes, 
there shall be a standing committee on homeland security either 
would have to literally transfer very much jurisdiction, and 
those concerns were expressed at last Congress' Homeland 
Security Committee, or create an additional layer as another 
standing committee. But do the other committees retain current 
jurisdictions? For the time being under the Speaker's mandate 
they do. Whether eventually more Members stand to lose power 
and influence by a consolidation than to gain, that is perhaps 
or realistic approach to the eventual creation of a permanent 
standing committee.
    The rules of the House have never completely matched the 
executive department reorganizations. We tried to do it, as my 
statement said, in the Department of Transportation area and 
the Department of Energy area, and incrementally some of those 
changes have come to pass where, for instance, the Public Works 
Committee is now the Committee on Transportation, but it took 
20 years to get there from the creation of the department.
    With respect to Energy, there is still not an Energy 
Committee. The Energy and Commerce Committee is certainly 
primary, they have a statement of jurisdiction over management, 
but there are five or six other jurisdictional claims that 
other committees retain. Whether it is possible politically and 
institutionally to wrap homeland security-related functions of 
the new department while retaining separate nonhomeland 
security functions in standing committees, Customs, 
Immigration, Food Inspection, Public Health, other 
transportation aspects, Coast Guard, those are all examples 
where there are clearly overlaps. If you had to draw a new rule 
X you would have to be very conscious of whether you were 
bifurcating those current statements of jurisdiction.
    Ms. Dunn. Do you think that having a specific standing 
committee on homeland security is the best way for us to 
oversee that department, newly formed department in the 
administration?
    Mr. Johnson. Well, oversight, as I pointed out, is within 
all committees' authorities. The rules of the House say, for 
example, the Government Reform Committee can specifically 
conduct oversight on any subject notwithstanding the fact that 
one or more of the other standing committees has legislative 
and oversight jurisdiction. So the the potential for repetition 
in oversight is the question. All the standing committees can 
conduct oversight in their respective areas of concern right 
now, as can your Select Committee on Homeland Security. Does it 
make sense to have those potentially competing authorities for 
oversight or must it eventually become a leadership driven 
coordination effort to try to simplify oversight, to parcel 
out, if you will, to get understandings? I suppose that is 
partly the reason that so many standing committee chairmen and 
some ranking members are on this committee, to know the extent 
to which the select committee will conduct oversight in 
addition to or in lieu of the standing committees.
    Again, Ms. Dunn, you can tell I don't have an easy answer 
to it.
    Ms. Dunn. To add to your answer, I think focus is a major 
reason that we have this particular committee and are thinking 
about extending it to a standing committee. What would you 
suggest we do in areas over which we do not have oversight like 
FBI and CIA. We have Porter Goss on our committee and others 
who sit on committees, Judiciary chairman is on our committee. 
How would you suggest that we handle that sort of 
responsibility that certainly has a huge bearing on homeland 
security but isn't within the 22 agencies over which our 
committee has jurisdiction?
    Mr. Johnson. Well, it is an interesting question. You say 
you don't think you have the jurisdiction. Legislatively 
perhaps not because that did not become part of the structure 
of the new department. There was a decision made to keep FBI 
and CIA within an entity--there was an office, a center, I 
think, proposed in the House version that was ultimately 
dropped in the final version. I am not sure that necessarily 
translates into the conclusion that this committee has no 
jurisdiction, no oversight jurisdiction over intelligence. You 
have an Intelligence and Counterterrorism Subcommittee created. 
Now, I think you can point to the rules of the House and say 
you can conduct oversight in this area, but there obviously are 
security and other concerns with the Permanent Select Committee 
on Intelligence, which clearly has that very strong mandate in 
the House rules. The extent to which you as a subcommittee 
consider that potential inconsistency is a legitimate concern. 
But I wouldn't necessarily say that you have no oversight in 
this area. I think the threshold is the extent which you want 
to exercise it consistent with the strong mandate for the 
Intelligence Committee.
    Ms. Dunn. Thank you. Thank you, Mr. Chairman.
    Mr. Diaz-Barlart. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you, Mr. 
Johnson, for being here today.
    Ms. Sanchez. I begin by thinking that the more I look into 
things, the more I think that there might be a case made for 
having a standing committee for homeland security. And I come 
to that reason, and let me first sort of lay out what I am 
thinking and then ask you some, I think, pertinent questions to 
that.
    My biggest problem with what is going on with homeland 
security is that I think it can be a very black hole with 
respect for resources spent in protecting this homeland, and 
that when there is jurisdiction, authorizing jurisdiction, I 
guess, between different committees, that maybe there isn't 
somebody really taking the whole picture of what is the--what 
are the limited resources and what are really the priorities 
that we have to do. And when you have something in 
Transportation and something in Intelligence and something in 
Commerce and other issues, then everybody is trying to solve a 
problem, but nobody is really taking a look at the overall 
picture. And I have a feeling that, from an authorizing 
standpoint as well as from a spending standpoint, that this 
committee can become a pretty large money committee in a sense.
    On the other hand, when I took a look at some of the real 
policy issues that this committee might be addressing, they 
seem to be, quite frankly, taken pretty well care of within 
some of the standing committees. In other words, there is-- 
Government Reform and Judiciary have done a pretty good job in 
looking at and addressing more policy rather than the money 
issues that come along with this problem.
    I want to ask you a couple questions with respect to the 
Commerce Committee and the reorganization that happened 20 
years ago, or whenever it happened, because that is the last 
real indication we have here. First of all, where would I go to 
find some of the discussion that happened with respect to what 
people were thinking when they were looking at the 
jurisdictional issues of Commerce and Energy Committee? And, 
secondly, Commerce, when I look at it, is a committee that 
really does more policy rather than money. So maybe it doesn't 
really apply as well to what I am asking of you. What would you 
say were some of the biggest issues that were worked through 
when that reorganization was going on and things that we should 
be taking a look at from an overall standpoint?
    Mr. Johnson. Well, that was in 1980 when a similar select 
committee on committees chaired by then Representative 
Patterson from California, Jerry Patterson, was established in 
the wake of the creation of the Department of Energy, which was 
in turn a response to the energy crisis of the late 1970s. The 
House in its wisdom adopted a substitute offered by one of the 
most respected Members of the House, Jonathan Bingham of New 
York. He saw the jurisdiction which had been in five or six 
committees going to a new Energy Committee which would be 
separate from the remaining jurisdiction of what was then 
called the Interstate and Foreign Commerce Committee.
    They are committee reports and summaries, and certainly the 
debates in 1980 are instructive because the day--similar to the 
day the Bolling recommendations were rejected, the day the 
Jonathan Bingham substitute overcame the recommendations of the 
select committee was another watershed day in the House. It was 
yet another indication that a select committee's 
recommendations, unless there is a lot of work done to 
encourage Members to appreciate and vote for them, may not 
prevail on the House floor when, as it turned out, six 
committees, including then Interior, Science, Armed Services-
nuclear energy was a huge issue then, still is. Armed Services, 
Resources, Science committees together perhaps felt that they 
were going to stand to lose more power and influence than would 
remain with them, so it was a tough sell.
    A memorandum of understanding finally emerged when the 
continued fragmentation among the committees was adopted, the 
five or six committee chairmen got together. It is very 
instructive for you to read that memorandum of understanding. 
They basically agreed by signing a piece of paper that no one 
lost anything jurisdictionally. They agreed that the Speaker 
could make multiple referrals as he had begun to make over 
those preceding 4 years to honor every committee's retained 
jurisdiction, and that is where it stood. I think that is a 
valuable lesson, as you ponder this potential reorganization, 
that there has been such a proliferation of referrals that it 
does enhance the status quo arguments for retention of existing 
jurisdictions.
    But when you-focus on money as distinguished from policy. 
The authorization process is really both. In its traditional 
form, it is supposed to recommend levels of spending above 
which the appropriators should not go in conjunction with new 
policy, whether it is permanent or whether it is sunsetted 
after a few years. So a true authorization in the traditional 
sense is both. The question is, given the compression of 
scheduling in the current-day reality on establishing the 
Congressional budget, meeting the October 1st fiscal year 
deadlines, with a budget resolution or without one, does the 
reauthorization process, which is potentially there to set 
limits on spending, is it relevant anymore, or could it be made 
more relevant once again?
    So, policy and spending issues really intersect in a true 
authorization environment.
    Mr. Diaz-Barlart. Ms. Sanchez, please feel free to 
continue; but since we have been interrupted by this nasty 
business called democracy, why don't we go and vote. And then, 
if the witnesses would be so kind, Mr. Johnson and the two 
subsequent witnesses, to return, then we can continue. So we 
will resume. Thank you very much.
    Ms. Sanchez. Mr. Johnson, I didn't mean that--I realize 
that a good authorizing bill, you know, does involve the money 
perspective. That is what I mean that I think this committee 
could become a money committee, probably just right behind 
defense, in my opinion. There are so many issues that people 
are approaching us about in order to protect the homeland. I am 
interested to ask you what you think about the whole issue of 
having one place to really take a look at limited resources and 
where one places them versus the situation that we have now, 
which is spread over almost every committee in the Congress.
    Mr. Diaz-Barlart. Why don't we do this: The committee will 
be in recess. If you can hold your answer, then you can 
continue; please feel free to continue your line of questions, 
and we will be back. If you could hold your answer until we 
come back, Mr. Johnson. Thank you very much.
    [Recess.]
    Mr. Diaz-Barlart. The subcommittee hearing will reconvene.
    I recall that Ms. Sanchez was asking some questions. As a 
matter of fact, the last she had asked some questions, and 
before, Mr. Johnson, you had an opportunity to reply, we had 
the interruptions. Perhaps you could reply, and then if there 
are any questions from Members present, we will have them--. 
And, again, we thank you so much for waiting.
    Mr. Johnson.
    Mr. Johnson. Mr. Chairman, I did have a follow-up 
conversation with Ms. Sanchez before she left, and she was 
using her membership on the Armed Services Committee as an 
example, as probably the most vivid example, of the House 
authorization process being honored on an annual basis, because 
the defense authorization bill, while it has undergone unique 
procedural nuances in recent years, as you know, Mr.Chairman, 
as a member of the Rules Committee, they have gone to issue 
clusters, so-called, as they allowed amendments. But invariably 
the Armed Services Committee has been able to report and have 
considered on the House floor their authorization bill before 
the defense appropriation bill is considered. Now, that doesn't 
mean the appropriation bill doesn't need a waiver of points of 
order; it does, because the authorization doesn't become law in 
time. To the extent that they have been able to sanctify the 
authorization process with debate on policy and funding levels 
on an annual basis, a framework for appropriations has been 
developed.
    So I think in her mind she was asking can this same 
guarantee, if you will--I don't want to put words in her 
mouth--translate over into this area of homeland security. It 
is perhaps more difficult because you have entrenched 
established areas of jurisdiction within the various standing 
committees as opposed to clearly delineated jurisdictional 
areas that have existed for some time within the Committee on 
Armed Services. So I think that was the model she using.
    There is not a clear answer as to whether there is time and 
the willpower to sanctify, if you will, an authorization 
process within the homeland security area. I don't think the 
Armed Services Committee is an exact model, but, again, it is 
instructive to the dilemma that your committee faces as you 
submit recommendations to the Rules Committee.
    Mr. Diaz-Barlart. Thank you, Mr. Johnson.
    Do you have any follow-up questions?
    Ms. Slaughter. No, I don't.
    Mr. Diaz-Barlart. I have found your testimony extremely 
helpful, and again feel it has been an honor that you have 
gotten us off to a wonderful start. So thank you for 
testifying.
    Mr. Johnson. Mr. Chairman, if I might just say that our 
office remains available to any of your Members and staff in an 
ongoing way to furnish information or to be helpful.
    Mr. Diaz-Barlart. Thank you so very much.
    Following Mr. Johnson, we will hear from two very well-
known legislative and political experts: Thomas Mann of the 
Brookings Institution, and Norman Ornstein of the American 
Enterprise Institute. Each is highly regarded for sharp 
analysis and their prolific writing on Congress and other 
important matters. Each, too, has testified many times on 
reform issues before diverse House and Senate panels, and we 
are honored to have Mr. Ornstein and Mr. Mann here.
    Your entire testimony will be included in the record 
without objection, and so, as you wish to proceed in the order 
that you wish, you are very welcome.

STATEMENT OF THOMAS E. MANN, SENIOR FELLOW, GOVERNANCE STUDIES, 
                   THE BROOKINGS INSTITUTION

    Mr. Mann. Mr. Chairman, thank you very much. Ms. Slaughter, 
I am delighted to be here, delighted to join once again with my 
friend and colleague Norman Ornstein in collaborating on our 
testimony and reflecting back on the experience of a decade ago 
with our Renewing Congress project and the efforts surrounding 
the Joint Committee on the Organization of Congress. We also 
had occasion to work with the Rules Committee on a number of 
changes, and am very pleased to be asked to participate in your 
deliberation on this question.
    Let me say that there is a natural temptation for a 
political scientist, student of Congress, who has watched major 
jurisdictional reform efforts in the past, to simply avoid the 
whole question. Congressional history is littered with the 
failure of jurisdictional reform. Mr. Johnson referred to much 
of that history, the Bolling Committee, the Patterson 
Committee, the Joint Committee on the Organization of Congress. 
We can look at the formation of new executive departments, 
whether it be Energy, Education, Transportation, and see that 
in the past that hasn't been sufficient to prompt a rethinking 
of rule 10 here in the House of Representatives. You probably 
have to go all the way back to the formation of the Department 
of Defense to find a really positive story, but that was 
relatively easy, because there were separate service committees 
that could easily be combined into the Armed Services Committee 
up here in the Congress. So, lots of failure in the past.
    Secondly, mechanisms have been developed over time to cope 
with jurisdictional sprawl. And again, Mr. Johnson was very 
informative in discussing the referrals. He could have talked 
about special rules, of scheduling, of moral situation that has 
been used to try to deal with the multiple jurisdictions across 
committees that exist.
    It is also the case that there are some real advantages in 
allowing this jurisdictional sprawl, or at least advantages in 
not eliminating it radically. There are little oases of 
historical memory, of expertise among Members and staff on 
various committees and subcommittees. There are alternative 
perspectives brought to bear on similar problems that provides 
the House and the Congress with some real advantage.
    So you could make a pretty powerful case that, let well 
enough alone; if you try to build a permanent standing 
committee on homeland security, you will fail; and if you 
succeed, you may end up doing some damage.
    Now, that would have been the easy thing to say before your 
committee today, but we are going to acknowledge the truth of 
everything that I have just said, but take it one step forward: 
That we believe your goal should be the establishment of a 
permanent standing committee on homeland security. That these 
are not ordinary times. September 11th doesn't happen every 
month or year or decade or century.
    Right now, Norman and I are involved in another project 
called the Continuity of Congress project in which commissioned 
members have concluded that replenishing the House in the face 
of a catastrophic terrorist attack is virtually impossible 
under our constitutional arrangements, and they will recommend 
to you very shortly a constitutional amendment. And yet 
virtually every member of the commission, ourselves included, 
always argue against constitutional amendments. But 
extraordinary circumstances call for extraordinary measures, 
and I think this is one of those measures that--those times 
when your committee should set as a goal the establishment of a 
permanent standing committee on homeland security with 
jurisdiction spelled out in rule 10.
    Now, that doesn't mean it is absolutely comprehensive and 
it is all exclusive jurisdiction. There are many areas in which 
some shared jurisdiction are only natural. There are areas 
within the Department of Homeland Security that have nothing to 
do with homeland security. There are important activities in 
the intelligence, the FBI, defense communities that are not 
within the Department of Homeland Security. So of course it is 
not a neat one-to-one mapping, but the problem is so central, 
the experience has been so traumatic, that if Congress can't 
make one substantial change in its jurisdictions under these 
conditions, I suspect it never will be able to do so. So for 
you to accept this as an impossible task at the outset, I 
think, is to not give proper deference to the experiences we 
have gone through in the last couple of years.
    But our recommendation is that you move gradually and 
strategically; that if you try to establish a permanent 
standing committee with substantial jurisdiction that takes 
away from other committees at once, you will fail. But one 
could imagine moving incrementally and strategically with 
several areas of jurisdiction, and maybe even enticing some 
members on those committees to move to the new standing 
committee on homeland security. It might be possible with the 
support of the Speaker to pull it off. It is also clear that 
this effort would have to be combined with all the other 
efforts of coordination to make it work, because there never 
could be one-to-one mapping.
    Let me make one final comment before turning it over to 
Norm. Congress throughout its history goes through periods of 
centralization and decentralization. Right now we are in the 
midst of an extraordinary centralization of power and authority 
and procedures. The committees have suffered vis-a-vis the 
leadership, and deliberation within a division of labor has 
suffered to some extent. And there are advantages to that. 
There are also disadvantages for the House as an institution.
    My own view is that centralization is well-suited to a 
pattern of dispersed jurisdiction, where the Speaker and his 
agents can organize the effort to bring to the House, while 
establishing a stronger standing committee with some original 
jurisdiction acknowledges the advantages of division of labor 
and genuine specialization. I think there is something to be 
said for if only a slight move back in the direction of some 
division of labor, specialization, decentralization in a House 
whose great strength is its ability to deliberate one colleague 
with another. Thank you.
    Mr. Diaz-Barlart. Thank you very much.
    Mr. Ornstein.

  STATEMENT OF NORMAN J. ORNSTEIN, RESIDENT SCHOLAR, AMERICAN 
        ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH

    Mr. Ornstein. Thank you, Mr. Chairman. And thank you for 
the honor of appearing in front of you. And thanks to Ms. 
Slaughter for the yeoman efforts to make it back for this 
hearing.
    We have been around the block on these issues for a long 
time, I must tell you. Both of us were involved with the 
Bolling Committee. You have other people in this room who were 
as well. We don't look that old, I know. And we carried through 
with the successor committees in the House up to and including 
the Patterson Committee and beyond that. We both worked very 
closely with Mr. Dreier and his counterpart Lee Hamilton in the 
creation of the select committee 10 years ago and its efforts. 
And I also was very proud to be a significant part of the most 
successful effort at reorganization in Congress in a very long 
time, which was the reorganization of the Senate in 1976, 1977, 
where we actually had some greater success, although not what 
we had hoped for.
    Let me raise three larger questions that it seems to me we 
should deal with. The first is, should this now be an occasion 
for a full-scale reconception of the committee system as a 
whole, something that we have done before, and unsuccessfully? 
And one can certainly make the case both for Congress and for 
the executive branch that the late great Daniel Patrick 
Moynihan called for the creation of a new Hoover Commission to 
look at the executive branch. The idea that we have moved from 
the industrial age to the information age, and we have 
institutions of government that are really set back in the 
post-World War II industrial age should make us think through 
whether we are organized appropriately to deal with the issues 
and problems that lie ahead. And that is true of Congress as a 
whole.
    Desirable as that goal may be, it is a fool's errand right 
now. It is not going to happen. We don't have any great sense 
of urgency that this system is entirely broken, and the 
resistance to it is so overwhelming that, unless you have a 
much, much larger feeling out there that it has got to be done, 
it is an important exercise, an interesting exercise, one that 
may help us down the road, just as we know that a lot of things 
that we have written, that others here have written you could 
pull out now, 30 years later, and change a few words here and 
there and they would apply, the same problems, maybe even the 
same analysis may be useful at a later stage, but we are not 
going to do that right now.
    So we get to the second question, which is, when you have 
the emergence of a new and powerful large-scale national 
problem that cuts across existing lines, should that emergence 
lead to the creation of a new, powerful, and comprehensive 
standing committee to take it into account? And of course there 
is a corollary there. If the executive branch responds to this 
new, powerful, large-scale national problem by creating an 
executive department, should Congress act in a parallel fashion 
so that you have a comparable committee as much of the 
committee system is organized along those lines?
    Here, of course, is where the example of the energy problem 
becomes an instructive one, and we have written about it a 
little bit, and I will come back to it in just a second.
    Then there is the third issue or the third question: Can we 
find other mechanisms, including some creative ones, that can 
work at least in part as a solution to this problem if it turns 
out that, for a variety of reasons, we either don't believe it 
is a good idea to create a sweeping new committee or we simply 
can't? And that is where some of the things that we have 
briefly touched on in our testimony, I think, become relevant, 
and also some of the previous examples do.
    Now, I want to talk about the energy issue just briefly for 
a minute. But let me say, my own feeling is that we have a 
problem now that does call out for a standing committee which 
has very considerable jurisdiction over this problem area, and 
as we suggest in the testimony, at least a little bit, I think 
the parallels with the executive branch in this case are 
important, powerful, and instructive.
    The President started out with the equivalent of a select 
committee, really, by putting the Office of Homeland Security 
in the White House without significant line authority, 
substantive authority; really the power of proximity to the 
President, the power of having a very prestigious and 
influential and important person appointed to that post in Tom 
Ridge, and relied on his ability to coordinate matters to make 
it work. It didn't work very well, and over time he came, I 
think, inexorably to the conclusion that what he had originally 
rejected, a department that is the equivalent of a powerful 
standing committee, was a better way to go.
    Now, I am not sure that I would have created a department 
as sweeping as this one. I early on had thought that the 
initial recommendation of the Hart-Rudman Commission that would 
focus particularly on the border security areas was a good way 
to start this process and basically pull together those 
agencies that have a piece of the border and then move from 
there. But I could understand what drove him to that larger 
department.
    And I think Congress will come and should come inexorably 
to the conclusion that even though you have a tremendously 
prestigious, intelligent leadership for this committee, and 
even though you have the imprimatur of the Speaker, and even 
though you have a lot of powerful Members, that if you don't 
end up with some substantive jurisdiction, over the long run we 
are going to have continuing problems overseeing and 
legislating on and authorizing this huge new department that 
represents the largest reorganization, I would argue, anywhere 
in history. And we are already seeing the difficulties of 
pulling that together, and having good, tough congressional 
oversight becomes important.
    So I am for that, while I recognize that it is simply not 
practical or possible to do the kind of sweeping reorganization 
in the Congress that was done in the executive branch, which 
would do great violence to the jurisdictions of a significant 
number of committees. And it is not going to happen. And there, 
again, the example of Energy does become instructive, because 
it wasn't just the efforts of the Patterson Committee and then 
the Bingham substitute here. You could go back to the 1975, 
1976, when we had this strong emerging sense of a crisis in 
energy. We had an effort by Speaker O'Neill to try to create an 
energy committee and met fierce resistance by all the other 
committees. He was unable to do it. We had another effort after 
the Energy Department was created by President Carter, and it 
failed, of course, all this following on the Bolling 
Committee's efforts before we ended up with the fairly minor 
tinkering along the way.
    But I don't think we are in much of a different situation 
now, and clearly we are not in a position in the short term to 
go ahead and move forward with a full-scale reorganization.
    One element of the energy issue, though, that becomes 
instructive here, I think, is worth mentioning, and that is 
that after it became clear we weren't going to get a full-scale 
committee, we did have President Carter move forward with his 
chief priority early in his administration. It was a 
comprehensive energy plan. And what Speaker O'Neill did at the 
time was a very creative approach to move that piece of 
legislation along. He created an ad hoc energy committee with 
fairly widespread representation, kept the substantive 
jurisdiction in the existing standing committees, but set very 
firm deadlines for them to report out their pieces of this 
legislation, and held them to those deadlines, moved it along. 
And then the ad hoc committee coordinated the pieces. As they 
took it to the floor, you actually had a sort of sharing of 
responsibility on the floor between the standing committees and 
the ad hoc committee. The ad hoc committee which pulled those 
pieces together had some significant impact on the legislation. 
They actually were able to build in elements that the standing 
committees would not or could not, and helped to expedite it 
through the process, and then also played some role a long time 
down the road in the conference committee.
    Because the bill as it passed through the House rather 
quickly was then brought to a standstill by a filibuster in the 
Senate for months, I think this ad hoc committee got no credit 
for what it did, and at least the creative elements of this 
process that engaged the Speaker got lost in the shuffle. And 
it was not a process that was applied on any kind of a regular 
basis later on. And I am not suggesting that you have a single 
piece of legislation moving forward or that it should become 
the process along the way, but what it did for me and what I 
think it should lead you to do is to think through ways as we 
move, perhaps gradually, and we hope towards, in fact, the 
creation of a standing committee with some substantive 
jurisdiction. Some additional elements, including the more 
creative use of the referral process, and including perhaps a 
more active involvement of the Speaker in that process and in 
designating lead actors when important pieces of legislation 
move forward, and maybe doing the same thing through an 
oversight process, could help us along.
    Now, let me say finally that we have also come to the 
conclusion--there are actually two other quick pieces--that we 
should look at shared referrals in this case, and that it may 
be more appropriate to look at shared jurisdiction and shared 
referrals--shared jurisdiction is what I meant--than in many 
other cases. If you really think about the rationale for the 
creation of a Department of Homeland Security and go back to 
what the Hart-Rudman people used as their rationale when they 
first recommended it, it really was the idea that we had a 
group of agencies and bureaus and departments that had missions 
and had had them for decades, were focused around those 
missions, as with any organization built cultures to reinforce 
those missions, and now they had a new and important mission, 
and unless you moved them away from their cultures, they were 
not likely to fulfill those missions. And they came to the 
conclusion that the only way to do that was to forcibly move 
them physically and otherwise out of their cultures. But that 
ignored in some ways the reality that those old missions would 
continue in place.
    We have the same thing now with every single element of the 
new Department of Homeland Security. They have a homeland 
security mission. They also have additional missions. And we 
have the same problem on a different scale with the 
intelligence process in other areas where they have a homeland 
security mission, but they are not a part of the new 
Department. We have, obviously, a challenge coordinating those 
things.
    It would seem to me that having some shared jurisdictions 
in these areas would be very useful. It would enable you to 
make sure that the homeland security element of the mission of 
those different bureaus is maintained while the committees that 
have responsibility for the other elements, including the 
Agriculture Committee for animal and plant inspection, would 
retain some ability to make sure that those functions are 
carried out and not lost in the shuffle either. So we can think 
through some creative things there.
    And, finally, I want to come back to something that we had 
recommended a long time ago that I also think really needs 
serious consideration. There really is a problem with executive 
agencies and their top officials having to deal with demands 
from 20 or 30 or 40 committees and subcommittees to come up and 
testify, often saying the same things or on the same subjects. 
Everybody wants a piece of the action, and if you say no, you 
create a huge problem. This is an area where it just seems to 
me the Speaker needs to be given the authority and the 
encouragement to step in and create a process of prioritizing 
for those top officials. In this area especially, where there 
is such a political attraction to homeland security, the 
temptation for dozens of committees up here to want to get the 
top officials of the Department to come and testify will be 
very, very large, and that will leave them no time to focus on 
what they should be focusing on, which is homeland security.
    We have got to set priorities and have it come from the 
Congress where you say, no, you can't; or, you will have to 
come to us and give us a compelling reason for why testimony in 
front of your subcommittee by Tom Ridge or Asa Hutchinson or 
any of these other top officials is an appropriate thing to do 
when they have testified six other times elsewhere. That is 
true for every department, it seems to me, and for every one of 
these top officials, and ought to be another area that the 
Rules Committee, that this subcommittee, considers as well. 
Thank you.
    Mr. Diaz-Barlart. Thank you. Thank you both very much. I am 
very impressed with the crispness and the clarity as well as 
the candor of your testimony, and I think it is extremely 
helpful as this subcommittee begins to build a record for 
ultimately coming to decisions.

      PREPARED STATEMENT OF THOMAS E. MANN and NORMAN J. ORNSTEIN

    The views expressed in this statement are those of the authors and 
should not be ascribed to the trustees, officers, or staff members of 
the American Enterprise Institute or The Brookings Institution.
    Thank you for inviting us to testify before your subcommittee on 
whether the existing committee structure in the House is adequately 
organized to address the policy and oversight issues associated with 
homeland security. A decade ago the two of us and our respective 
institutions collaborated on a Renewing Congress Project, which was 
designed to offer recommendations for improving the effectiveness of 
Congress and restoring its legitimacy within the American political 
system. As part of that effort, we testified before the Joint Committee 
on the Organization of Congress on problems with the committee system 
and made a number of suggestions regarding the number, size, 
assignments to, jurisdictions, processes, and coordination of 
committees. Some significant changes took place in the House committee 
system in the years thereafter, thanks largely to the efforts of David 
Dreier in 1994-95. But many of the same problems and issues remain. So 
do the basic principles of congressional committee organization and 
practice we articulated in 1993. We are pleased to collaborate once 
again on a question central to our earlier deliberation: how might the 
Congress best organize itself to deal with a new and pressing issue, 
one that is exceedingly complex and multi-faceted.
    September 11 and its aftermath generated tumultuous changes in 
American government, including the most complex government 
reorganization in American history. The new Department of Homeland 
Security (DHS), a behemoth struggling to combine twenty-two agencies 
employing nearly 200,000 workers, faces daunting managerial challenges 
as well as immediate demands to deal with high-priority risks. While 
its responsibilities extend well beyond homeland security, many 
critical elements of the federal government's homeland security 
activities continue to reside in other departments and agencies. The 
new department will need all the help it can get `` adequate funding, a 
clear sense of priorities, coordination of government-wide efforts by 
the Office of Homeland Security, strong presidential support, and an 
effective working relationship with Congress.
    Just as importantly, the country needs strong, active and informed 
congressional oversight of DHS and of the broader homeland security 
mission of the federal government. Congress has taken some initial 
steps in this direction, by creating new appropriations subcommittees 
with responsibility for the homeland security budget, and by creating 
the House Select Committee to begin the process of focusing and 
coordinating congressional oversight of DHS and the broader strategy 
for protecting the nation's security at home. The critical question 
that must now be addressed by the House is whether the Select Committee 
should be a steppingstone to a major permanent standing committee of 
the House, with primary jurisdiction over both the department and the 
areas of policy it encompasses, and with its areas of jurisdiction 
spelled out in Rule X.
    The reason for creating a permanent standing committee with primary 
jurisdiction is clear. Currently, according to the Administration, 13 
full committees in each house, along with more than 60 subcommittees (a 
total of 88 panels overall) share some jurisdiction or responsibility 
for homeland security. Of course, for many of these panels the piece of 
jurisdiction or the centrality of the focus is very limited. 
Nonetheless, many major pieces of responsibility for the new department 
are central to at least four authorizing committees in the House 
(Agriculture, Judiciary, Transportation and Infrastructure, and Ways 
and Means.) These four committees have primary jurisdiction and 
oversight authority for the Animal and Plant Inspection Service, the 
INS, the Coast Guard, FEMA, the Transportation Security Administration, 
and the Customs Service, which combined make up the lion's share of the 
new department. To leave this fragmentation means that the central 
motivation to create a new department -- to merge functions and change 
cultures and outlook in these areas to focus on homeland security -- 
will be seriously compromised.
    There is certainly a case to be made for addressing an even broader 
question. The basic structure of the committee system, one designed in 
the aftermath of World War II to fit its era, including focus on the 
issues that dominated the times; to fit oversight of the executive 
branch by having committees in many cases parallel the agencies; and to 
be sensitive to representation of important groups like veterans and 
small business, has not changed in nearly 60 years. Should the 
committee system designed for the industrial age and the Cold War era 
be replaced by one designed to fit the information age and the post-
Cold War era, with its problems of rogue states and terrorism?
    We would be delighted if Congress used this opportunity to rethink 
the basics. But we know that such an ambitious reform, or even such 
focus, is not in the cards. Congress has too many other things to do, 
and changes in the committee system, even of a small variety, are 
excruciatingly difficult to achieve. We are painfully aware of what has 
happened to other efforts at fundamental reform, including especially 
the fate of recommendations of the Bolling Committee thirty years ago 
and of the Joint Committee on the Organization of Congress a decade 
ago.
    We also know well that the emergence of a major national problem or 
creation of a massive new cabinet department is usually not enough to 
overcome turf considerations, power relationships, and the electoral 
interests of Members to create major new authorizing committees. The 
case of energy is particularly instructive. As many as 83 committees 
and subcommittees had jurisdiction over energy policy and related 
agencies in the 1970s. Among its sweeping changes, the Bolling 
Committee had recommended creation of a new energy committee in 1974. 
That proposal failed along with the other major recommendations. As the 
energy problem deepened, Speaker O'Neill in late 1976 (before the 
proposal for a Department of Energy) pledged to work for the creation 
of a new standing committee on energy. The fierce reaction from 
committee elders forced him to retreat from that pledge.
    When President Carter made his energy plan the centerpiece of his 
first year in office, in 1977, Speaker O'Neill created an ad hoc 
committee to help shepherd the Carter plan through the House on an 
expedited basis. He was unable to give this ad hoc committee primary 
jurisdiction over the omnibus energy plan. Instead, the Speaker crafted 
a plan allowing existing standing committees to work on their pieces of 
the action, but under time deadlines. Their marked-up legislative 
products were then given to the ad hoc committee to pull together into 
a comprehensive plan. On the House floor, the leaders of the standing 
committees managed their relevant portions of the bill, and these same 
standing committee leaders were primary figures in the subsequent 
conference committee. The ad hoc committee, under Thomas ``Lud'' Ashley 
of Ohio and with a broad representation of senior members, had a real 
impact, including, among other things, allowing passage of a gasoline 
tax that had been opposed by the committee of original jurisdiction, 
Ways and Means, and giving the overall product enough legitimacy that 
it survived attacks by amendment on the House floor.
    As a model to manage a major bill cutting across several 
committees'' jurisdiction, the Ad Hoc Select Committee on Energy was a 
strong one. It worked'' but then was disbanded. No comparable efforts 
followed. The problem with fragmented jurisdictions in the energy area 
remained. The House came back to this continuing problem a few years 
later, after the second OPEC-driven oil embargo. In 1979, a successor 
to the Bolling Committee, chaired by Jerry Patterson of California, had 
as its major recommendation a consolidation of energy jurisdiction into 
a new standing committee. The result was de ja vu all over again. 
Fierce opposition from entrenched powerhouses on existing standing 
committees doomed the proposal. A more modest alternative, crafted by 
Rep. Jonathan Bingham of New York, was implemented, enhancing the 
coordinating role of the Interstate and Commerce Committee (renaming it 
Energy and Commerce) and giving it jurisdiction over ``national energy 
policy generally.'' It also maintained jurisdiction and primary 
oversight authority for the Department of Energy. At the same time, the 
Bingham plan underscored the primary role of the Committee on Interior 
and Insular Affairs over nuclear issues and of other committees in 
separate areas of research and policy.
    Both sweeping comprehensive reform of the Bolling variety, and 
narrower, single-issue committee reform of the Patterson variety, 
faltered. The energy experience is instructive, but it should not 
suggest to you that changes in Rule X are hopeless. Given the reality--
a major new problem for the nation that will not diminish, much less 
disappear, in the foreseeable future and a massive new executive 
department requiring both a regular authorization and serious 
oversight--you must grapple with the need for jurisdictional review and 
change.
    In some important respects, the problem facing Congress on homeland 
security is the same as the problem that faced the president in the 
immediate aftermath of 9/11. He initially eschewed the recommendation 
of the Hart/Rudman Commission to create a full-fledged agency of 
homeland security and opted for an office inside the White House-the 
equivalent, in many ways, of choosing a select committee over a 
standing committee. The office lacked line authority or budget power 
over the various agencies, bureaus, offices and departments dealing 
with facets of homeland security, relying instead on the importance of 
the issue, the stature of its director, Tom Ridge, and on his physical 
proximity to the Oval Office. Within months, the president realized 
that those assets were not enough. Following proposals developed in 
Congress, he recommended a large and far-reaching Cabinet-level 
department to deal with homeland security issues.
    The House opted to create a select committee, with no primary 
legislative or oversight jurisdiction, relying for its authority on the 
importance of the issue, the stature of its chair, Chris Cox, and 
ranking member, Jim Turner, the assignment to the select committee of 
chairs of committees with Rule X jurisdiction, and the imprimatur of 
the Speaker and the Minority Leader. These assets, too, will not be 
enough for the long term. Things a select committee can do-highlight a 
problem, look at the bigger picture, coordinate the work and reconcile 
differences among other committees, prod the executive branch to 
implement reforms or focus on new areas, educate the public-will not 
sustain it over the long run and do not solve the fundamental problem. 
Some entity must provide the broader supervision for the massive DHS 
and pull the jurisdictional pieces together in a substantive way for 
Congress. Congress, of course, was explicit in this realization; the 
Homeland Security Act says that it is ``the sense of Congress that each 
House of Congress should review its committee structure in light of the 
reorganization of responsibilities within the executive branch.'' In 
our judgment, there is no way out of the logic that there should 
eventually be a permanent standing committee on homeland security.
    That said, we do not necessarily mean that the permanent standing 
committee should be exactly parallel to the executive department-that 
the House should create a colossus and in the process do violence to 
the very fabric of its committee system. Instead, we recommend that the 
House adopt a measured and multi-pronged strategy, including an 
incremental approach to jurisdictional change, done in stages so the 
new committee can absorb areas gradually and all the relevant 
committees can adjust to change. This strategy will also involve some 
overlapping jurisdiction (for example, sharing responsibility with 
Agriculture for the Animal and Plant Inspection Service, or with 
Transportation and Infrastructure for the Coast Guard). It also 
suggests that leaders may want to rethink their initial decision to 
populate a homeland security committee with chairs of other committees.
    Shared and overlapping jurisdiction, in this case, is not just to 
avoid opposition to change from existing committees. Historical memory, 
expertise and competing perspectives on homeland security matters are 
valuable commodities that should not be lightly dismissed. In addition, 
the fact is that entities like the Customs Service, the Coast Guard and 
the Animal and Plant Inspection Service have dual responsibilities. It 
was the president's judgment, as it had been that of the Hart-Rudman 
Commission beforehand, that the homeland security responsibility, 
previously a secondary or non-existent one, must now be primary in all 
these areas. To make it so means changing the bureaucratic cultures of 
all these agencies and bureaus, which can only be done by moving them 
into a new department with a new mission.
    But the old missions do not disappear. The Customs Service still 
must facilitate trade, keep traffic moving efficiently at borders, and 
raise customs revenues. The Coast Guard must still facilitate 
transportation and promote safety in our coastal waters. The Animal and 
Plant Inspection Service must still protect sanitary conditions in meat 
and food processing plants. The Transportation Security Administration 
must still make sure that the aviation industry functions and that 
travelers can get from place to place without undue inconvenience. If 
homeland security is the only consideration, these functions can get 
lost or perverted along the way. So keeping shared jurisdiction in 
Congress can help make the dual functions work in the new department.
    We also strongly recommend that the House, with the active 
participation of the Speaker, the Parliamentarian and the Committee on 
Rules, make full use of joint and sequential referrals, special rules, 
scheduling and moral suasion to establish effective coordination among 
committees and to ensure timely consideration of legislation. These 
mechanisms will be especially important in coordinating authorizers and 
appropriators of DHS activities with those overseeing the related 
homeland security activities in the FBI, the intelligence agencies, the 
Defense Department and other agencies. Finally, we recommend that the 
Speaker establish his own coordination mechanism regulating the 
required testimony of DHS officials before committees and 
subcommittees. This will be necessary to prevent the debacle of 
executives facing demands to testify in front of dozens of panels, 
often on the same subjects, draining valuable time from their efforts 
to protect the home front without any incremental addition to 
Congress's knowledge base or ability to fulfill its own 
responsibilities.
    Mr. Diaz-Barlart. You have so much experience, let me ask 
you, in your studies you have pointed to the extraordinary 
difficulty of actually accomplishing these types of reforms. 
Could you address, maybe give us some advice from your study of 
the history of these efforts, perhaps some obvious lessons 
learned in terms of overcoming or potentially overcoming the 
inevitable turf wars or pressures for maintenance of the status 
quo? Do you have some advice to give us, if the subcommittee 
were to come to that conclusion, that we might want to share 
then with our Members?
    Mr. Ornstein. Kevlar.
    Mr. Diaz-Barlart. Excuse me?
    Mr. Ornstein. Kevlar. Bulletproof vests we start with.
    Mr. Mann. Listen, one of the most--the clearest and most 
obvious constraints here is that Members of the House, most 
Members of the House build their careers through congressional 
committees. They make a commitment. They are usually on several 
committees. They develop expertise, they build seniority, they 
establish relationships with interest groups that work with 
those committees. Both the Members and the groups that have 
developed patterns of communication, access, deliberation are 
very reluctant to see those disrupted in any way, which a full-
scale jurisdictional realignment almost inevitably does. So 
that is behind our suggestion that you initially develop joint 
jurisdictions, that you move gradually and incrementally over 
time with pieces of exclusive jurisdiction in ways that make 
the committee attractive and could lead to some committee 
transfers.
    Now, one would have to do a calculation on the votes and 
how that would work out, but I really believe you have to think 
in these very practical terms. So you have got to come at it 
from the bottom up, but at the same time you have to have a 
larger strategy. And in this case it really is September 11th, 
and what it has done to this country, the government, the 
priority that the battle against terrorism will have for the 
foreseeable future, it seems to me you have a claim, a public 
claim, a moral claim.
    There have been some statements from the leadership in 
support of that priority and mission. There have also been 
other statements from the leadership that all current standing 
committees shall retain their primary jurisdiction on these 
matters. So there is sort of conflicting messages from the 
leadership. But I think my lesson in looking at this experience 
is you have to do it intelligently and eyes wide open to the 
clear political constraints, and try to work with those 
constraints rather than to deny them; and, secondly, to have a 
macrostrategy that plays off the fact that we have a whole new 
set of problems on our hands that will require the attention of 
the Congress as well as the executive branch in the years 
ahead, and Congress has a responsibility to organize itself 
appropriately to deal with that.
    Mr. Ornstein. Let me make a couple of comments, 
Mr.Chairman. I mean, first, to be very candid here--and since 
most of the Chairs of the other committees are not here, I can 
speak openly knowing they won't know it--that, you know, you 
have an uphill battle that started with the creation of the 
committee. It makes a lot of sense in many ways in a 
substantive way to have a lot of other senior Chairs on the 
committee and Ranking Members, but they are going to fiercely 
resist having pieces of their jurisdiction taken away. And I 
have seen this up close and personal in a lot of ways. Tom and 
I will never forget when we were called on the carpet by the 
Chair, by many of the Chairs, 10 years ago when we sat in a 
room with Dan Rostenkowski, John Dingell, Jack Brooks, and 
others wanting to know what we thought we were doing, having 
recommended, among other things, that we move the trade 
jurisdiction out of the Ways and Means Committee to create a 
broader focus.
    So--and these things don't change. It is actually the one 
way you could bring bipartisanship back to the Congress; you 
get all the members of the committees joining together.
    So we know that this is difficult, and the way in which the 
committee was created makes it more difficult to move 
expeditiously in this direction.
    The one lesson that I have learned looking at both the 
House and Senate is that any kind of significant jurisdictional 
change can't take place without the extremely strong backing of 
the leadership on both sides; that unless you have the Speaker 
and the Minority Leader willing to stand up and provide some 
protection and take some of the hits for you, it just isn't 
going to happen. We managed to get that in the Senate in 1977, 
and without it, Adlai Stevenson, who was the Chair of our 
committee, and Bill Brock, and then Bob Packwood, who was the 
Ranking Member, would have failed miserably, and we got 
something done. We got rolled as well.
    I think the lack of really enthusiastic backing from the 
leadership has doomed other efforts here in the House. And, you 
know, surface backing but not real backing isn't enough. So you 
have a constituency there that you have to reach, and it is 
both Speaker Hastert and Ms. Pelosi, to convince them of the 
necessity to make these things happen. I think even with that, 
if you move to basically take very substantial pieces simply 
out of the jurisdiction of committees like Commerce and 
Judiciary and Agriculture, it wouldn't work, probably not now, 
probably not for a long time. And that is why you have got to 
be creative here to try to figure out how you can gain some 
considerable jurisdiction, and you are still going to get 
significant opposition, but that is probably the only way to 
make this happen.
    Mr. Diaz-Barlart. Let us talk a little bit for the record, 
if you could give us a sense of how much jurisdictional overlap 
exists in the homeland security area. Could you talk about 
that?
    Mr. Ornstein. Sure. I mean, the first is, of course, an 
enormous amount. The administration, and it is probably a 
slight exaggeration, has said that we have 88 panels, 
committees and subcommittees, in both houses, that have a piece 
of the homeland security jurisdiction. Now, I would guess we do 
have 88 that would claim--maybe even more--that would claim 
some piece of this jurisdiction, because it is natural to want 
to have a piece of it, but a lot of that is very small pieces.
    I mean, the fundamental reality is that we have got 
obviously Appropriations, and then we have got four committees, 
Agriculture, Judiciary, Transportation and Infrastructure, and 
Ways and Means, that have a considerable piece of the 
jurisdiction over the major components of the new Department, 
and those major components of the new Department, which are 
Plant and Animal Inspection Service, the INS, the Coast Guard, 
FEMA, Transportation Security Administration, the Customs 
Service, those together make up about 80 percent of the 
Department of Homeland Security. And so that is really where 
the lion's share of jurisdiction is, and that is where I think 
the major challenges are in terms of--other than the 
intelligence process, which obviously is a separate but 
critically important part of this process--the major challenges 
for you lie as well.
    And I would hope, by the way, that if there is any success 
at moving forward the creation of a permanent standing 
committee, and one that does have jurisdiction, including a lot 
of shared jurisdiction, that there would be a serious effort to 
bring the intelligence component into it, even if it isn't in 
the executive department. It makes for me even a more 
compelling reason to make a joint or at least some shared 
jurisdiction in the Congress, because we have to have some 
formal mechanism for coordinating and thinking through ways in 
which we can bring those elements together.
    Mr. Mann. Mr. Chairman, I just mention as a resource for 
your committee a book published by Brookings just in the last 
couple of weeks called Protecting the American Homeland One 
Year On, which really provides a lot of detail on the very 
questions that you asked. They also argue that between the 
problems of Homeland Security having non-homeland security 
matters to deal with and the important homeland security 
matters outside the Department, the challenge of the latter is 
much greater than the former. And as you think about possible 
reorganization within the House, I think you need to give 
primary attention to how to coordinate the intelligence 
activities that are now overseen elsewhere with key elements of 
the homeland security agenda.
    Mr. Diaz-Barlart. How much and how well is the 
fragmentation that exists in jurisdiction--jurisdictional 
fragmentation that exists in the area of homeland security, how 
well is that balanced, offset if you will, by the consolidated 
authority lodged in the Appropriations Subcommittee on Homeland 
Security?
    Mr. Mann. I think that was an important move taken by both 
the House and the Senate to create separate homeland security 
subcommittees on the Appropriations Committee, so a critical 
step that was taken. But appropriators are not authorizers. The 
kind of questions they ask, the concerns that they have are 
oftentimes different. It is driven in many respects by the 
budget process and the imperatives of the budget resolution. 
The kind of questions that get asked tend not to be the larger 
strategic questions, but more the questions about just how 
dollars are being spent here and there. So I thought it was a 
necessary step for the Congress, and certainly important, 
especially important given the absence of consolidated 
jurisdiction on the authorizing side, but not sufficient.
    Mr. Ornstein. Let me reinforce what Tom said. Actually the 
appropriations process is a good spot for oversight, and in 
many respects in many areas it may be the best place for which 
oversight occurs, because it occurs through that annual 
process.
    But the fact is that the culture of the Appropriations 
Committee, which is to spread money around and to satisfy a lot 
of different Members, can work very much against the 
imperatives of homeland security. You can imagine, and we have 
seen this, of course, before, where you have a budget to deal 
with some area that ought to be concentrated in the places 
where we have the most risk, and we spread it around every 
district in the country or to a very large number of districts, 
not with any prioritizing. And I don't think the appropriations 
process is the best place to make those priority 
determinations.
    So you have got to have some strong entity outside. The 
problem with fragmentation otherwise is, once again, just 
exactly what we had before we ended up with a Department of 
Homeland Security, which is all these other committees have a 
longtime interest in their own cultures built around the old 
functions of these agencies, and they are going to use their 
resources and their pressure to push those functions, which are 
appropriate functions. But if we don't have a counterweight to 
make sure that the Homeland Security culture takes over, then 
they are going to have even greater problems inside the 
Department making things work.
    So it is really necessary, it seems to me, to make sure 
that we have a counterweight that appropriations will not 
provide and that only you can provide, but you are not going to 
provide it over the long run without having some standing 
status.
    Mr. Diaz-Barlart. To what extent should the House's 
committee system parallel the organization of the executive 
branch?
    Mr. Mann. I don't think there is any need for there to be 
an absolute one-to-one mapping, but when the relationship 
between the committees and the executive departments is hard to 
fathom, when so much change has occurred over time that they 
bear little direct relationship, then I think some problematics 
exist.
    There is an advantage in having an Armed Services Committee 
with the responsibility for an--in this case, an annual 
authorization bill, and I think there would be advantages to 
the House in having a Homeland Security Committee. That is not 
to say, however, that every executive department needs to have 
an exclusive committee dealing with it. That is impossible. 
And, frankly, the reality is that problems cross departmental 
boundaries. Much of government is about trying to join up 
agencies and staffs across departments.
    The most important function of the Cabinet today is not the 
meeting of the Cabinet, but it is the Cabinet councils that are 
created under the authority of the Cabinet to allow departments 
to work with one another in an effective and authoritative way. 
So, no one-to-one relationship.
    Mr. Ornstein. I certainly agree with that. You can't ignore 
the executive branch's organization, or you would have chaos 
around here in terms of figuring out who had authority for what 
and making sure you could have effective oversight. But you 
don't want to parallel it entirely. And there are indeed going 
to be areas where, if the executive branch has failed to bring 
areas together under the same rubric, you may want to bring 
them together so that you can be sure that there is appropriate 
sensitivity paid, getting back to the example of intelligence 
and homeland security now, where I am not sure--I am not 
convinced at this point that the way the executive branch is 
now organized or the coordinating mechanisms that they are 
implementing are sufficient to make sure that we will have the 
intelligence information carried out in the right way, 
accumulated in the right way, or distributed around to the 
appropriate people at the appropriate time. And I would love to 
see Congress weigh in on this and make sure that it is done.
    Mr. Diaz-Barlart. Mr. Dreier.
    Mr. Dreier. Thank you very much, Mr. Chairman.
    Great to see both of you, and it brings back a lot of 
memories sort of in a delayed Ground Hog Day or something. It 
has been 10 years since we have gotten together. I was 
recalling that we had 243 witnesses and 37 different hearings a 
decade ago when we had this; and maybe that was one of the 
reasons that it took me a moment to remember that the 
Parliamentarian was the last Parliamentarian to testify. And 
Mr. Pitts just reminded me that I guess it was 10 years ago 
almost to the day when Mr. Brown testified before us.
    You know, I, in my opening remarks, commented on the fact 
that I want to keep an open mind, but when I think about--and I 
remember the two of you were recounting to me that famous 
Rostenkowski meeting that took place. And I have always had a 
bias towards trying to consolidate and fewer committees, and 
you remember the joke that we used to always tell; that if you 
walk down the hall and saw a Democrat whose name you didn't 
know, it was just, hey, how you doing, Mr.Chairman, because 
chances are he chaired some committee or subcommittee in the 
place.
    And, you know, then in 1994 we were able to take more than 
a few of those recommendations and put into place a 
consolidation, which, quite frankly, I believe has worked a lot 
better, a hell of a lot better than many people had 
anticipated. And now obviously we are in the wake of September 
11th, looking at the prospect of this. And I want to keep an 
open mind on this issue, but I think back. You know, you 
mentioned, Norm, the fact that there were 88--the White House 
has 88 committees in the House and Senate dealing with this 
issue. In the 1970s, there were 83 on the issue of energy.
    .Mr. Dreier. And Charlie proceeded to talk about 
incrementalism and how over the years we saw much of that 
absorbed. So I guess the question that I would pose to you on 
this, with my bias towards reducing the number of committees 
and subcommittees, obviously wanting to enhance the 
deliberative nature of the institution, I don't want to do 
anything that undermines our very important oversight 
responsibility, I want to do what I can to encourage that--it 
was interesting, you know, the Parliamentarian was proud of the 
fact that there were--I guess 11 members we were. He thought it 
was for his testimony. We had votes on the House floor. That is 
frankly what brought people back here in the numbers that were 
here, even though he and the two of you were offering very 
thoughtful input. I guess my question would be what is the 
argument against our establishing this as a standing committee? 
I mean, other than very personally. You know, Dave Bourne and I 
always joke that we dine alone because of the fact that people 
would rather give up their spouse or a child than they would 
jurisdiction in a committee, because there was such a high 
level of frustration over that and we know we are dealing with 
all these powerful committee jurisdictions. Other than the 
obvious there, which we could assuage some of those concerns 
that are out there, what would be the benefits to our not 
putting in place a separate standing committee?
    Mr. Mann. I think there are arguments. One of them is that 
the House since 1974 has figured out a way to live with and 
cope with jurisdictional sprawl, that the leadership working 
through the Parliamentarian's office has developed strategies 
of joint and sequential referral of special rules, of 
scheduling, in ways that allow them, the leadership to pull the 
expertise from various committees and subcommittees together in 
coherent pieces of legislation. In doing so, you don't disrupt 
existing patterns of expertise, of historical memory, of 
staffing, that you retain some capacity for alternative 
perspectives on similar problems, that you set up some 
competition between teams of members who might see things 
differently. All those are advantages in letting the current 
system go forward as it is. I suppose the biggest advantage is 
you don't have to go through the bloody process of replacing it 
and establishing a standing committee.
    Now, I sort of acknowledge those, I offer those in the 
spirit of honestly answering your question, and yet at the same 
time on balance everything I know tells me in spite of past 
failures that establishing one new committee, standing 
committee on homeland security, or setting that as a goal to 
move towards over time is a sensible thing to do in that some 
of the advantages that I have just given you from 
jurisdictional sprawl can be retained in a system that still 
has a focal point of a standing committee on homeland security.
    Mr. Ornstein. You know, in your question was the seeds of 
an answer to it, Mr. Dreier, and that is adding a committee 
will mean adding a lot of subcommittees, and it becomes even 
more of an additive process. We end up with more members spread 
thinner and end up more fragmented. Probably you are not going 
to have people who go on this committees who will not give up 
other committee assignments or at least they won't give up 
everything and we will end up with bigger institutional 
problems.
    If you remember back 10 years ago, one of the things we 
recommended most strongly and we recommended it as strongly as 
jurisdictional change was to get a handle on the total number 
of assignments that Members have, which has proliferated 
enormously and which have led to the reality, as we were saying 
earlier, that in the dozens of times we have testified the vast 
majority of them have been in front of one person because 
people have many, many other things to do, and that doesn't 
enhance the deliberative process.
    So you have to be very careful every time a new problem 
comes up that you don't want to simply create a new committee 
and add it on to what you have done. Ideally if we were doing 
this, we would make some other changes in this process. A 
little less than ideally, but close to it would be that if we 
go ahead and do this we really do get rules and leadership 
action that begins to clamp down on the proliferation of 
assignments that people have so that you don't have a lot of 
people with three, four and five major committees, because 
everybody likes to add them on. It looks good on the masthead, 
the letterhead. You don't have to be there often to be able to 
have more clout. Given what you have done with the proxy, the 
more you expand the number of assignments the greater problem 
comes in in each of the committees anyhow. But it makes it a 
little bit easier to cut down on some of those numbers and 
maybe you are not going to going to do that.
    Even with that I think this problem is so big and is 
clearly so enduring, this is not a 3 or 4-year problem that is 
just going to disappear, weapons of mass destruction that are 
easily and readily available to all kinds of actors out there, 
the fact that Iran it appears is very close to having lots of 
different ways of getting nuclear weapons that will spread 
through the region and that will create another set of 
problems, all of those things argue that homeland security is a 
critically important problem that will be with us for a long 
time. It is going to require coordination across a lot of 
areas. And if Congress doesn't find a way itself to coordinate 
and to oversee what the executive branch does in a coordinated 
fashion it will be a mistake.
    Mr. Dreier. Let me tell you my letterhead has three words 
when it comes to that department. It says Committee on Rules 
and nobody knows what the heck that is any way. So I don't get 
a lot of play on that.
    Mr. Ornstein. We know.
    Mr. Dreier. Let me thank you all very much for your very, 
very thoughtful presentation and the time and energy that you 
have spent on this. I appreciate it. I apologize for the fact 
that there will be one fewer member now at this hearing because 
I have to leave myself. But thank you all very much.
    Mr. Diaz-Barlart. Mr. Meek.
    Mr. Meek. Thank you so very much, Mr. Chairman. I am 
excited about being on this subcommittee because as a freshman 
I am just glad to be on something that says Rules. That is 
wonderful. It is a great thing.
    Let me move this mike here. You don't look attractive with 
a mike coming out of your ear. I thought I would share that 
with you.
    That was really the question that I think is going to not 
only plague this committee but this Congress, especially the 
House, on how we are going to oversee one of the largest 
agencies in the Federal Government. And when we created this 
select committee we had so many people, not only back home but 
here in the Capitol feeling a sense of this committee is going 
to have so much responsibility and oversight and direction and 
finally there is a committee that is going to question the 
executive branch for whatever knee-jerk reaction, good or bad, 
that it may make. And the department will have some sense of 
patience and may move hastily and in a direction if we were to 
have a terrorist attack.
    Now knowing that we have this effort against terrorism 
nationally, internationally, this is going to be an agency that 
needs preventative maintenance. I am trying to form the correct 
argument, Mr. Chairman. I am so glad that we are--chairman of 
this committee and the full committee--I am glad that we are 
having this discussion because we are going to have to not only 
explain in the different cloakrooms but also as it relates to 
members who have power now, I am on X committee and it says 
Homeland. Like I said, I am glad to be on the Rules Committee. 
They don't want to let that go. That may not necessarily be the 
best way to not only maintain but have oversight over such a 
huge agency. And I know that you have already commented on it 
is easier said than done but needed.
    I don't see this--you know, Norm, you mentioned this--it is 
not a going away kind of situation. This is like Social 
Security, Medicaid, Medicare. That is the way I am looking at 
Homeland now. I don't know how we argue that to our colleagues 
because you have chairmen that are on this committee that are 
fighting for their turf. How do you get them to relinquish that 
turf and move forward on behalf of the country?
    That is to both of you.
    Mr. Ornstein. This is not going to be easy. It is going to 
take a sustained effort. It isn't going to happen this 
Congress. I am hopeful that we can build toward having 
something at the beginning of the next Congress. It is going to 
take some work in public education and making this a larger 
public issue, in which I hope we can help. But as I said 
earlier, it is also going to take some work with the 
leadership.
    One example here is an issue area I followed for different 
reasons. We clearly have a problem with--a telecommunications 
problem in homeland security with something we saw on September 
11th, when we had all of these at the Pentagon, we had all of 
these emergency rescue teams come in from Montgomery and Prince 
George's County in Maryland and Arlington and Fairfax Counties 
in Virginia and they couldn't communicate with one another. We 
have got a larger problem with different slices of the spectrum 
allocated in ways that make emergency communication difficult 
and also have ended up freezing the cell phone system so nobody 
can communicate at the time of an emergency, and it requires a 
serious rethinking.
    Some of that responsibility falls with the new department. 
They got a million things that they are doing. Obviously it is 
within the jurisdiction of the Commerce Committee. But they are 
not necessarily going to start thinking along homeland security 
lines. They have got other things that they are doing. This is 
a place where having some kind of shared jurisdiction or having 
the focus of a department can make a difference, but just the 
select committee focus, the oversight focus probably isn't 
enough to use the bully pulpit in that area.
    So it is a whole number of areas where obviously some level 
of jurisdictional clout could matter here. And maybe as we 
raise some of those, we can get some larger understanding of 
this and maybe overcome some of the misgivings of the old bulls 
otherwise. But we should, you know, we should go into this with 
a very clear-headed understanding that just as with every 
example we have had in the past, it is a steeply uphill battle.
    Mr. Meek. Let me on the shared jurisdiction part, if you 
were--the bulk of you were to really look at it, what would you 
take, not cherry picking, but there is a sense of 
responsibility. I hate to say this and God forbid if something 
happens here in the homeland. The chairman is going to be front 
and center on every news channel that is available: You are 
Chairman of Homeland Security, how could this happen? What is 
the oversight? What has the committee done? Well, we kind of 
share this with other committees. It is almost like who has 
responsibility over homeland security and you can do one of 
these numbers: Well, it is him or it is them or they had 
oversight, we really don't but we are called Homeland.
    If we can push the leadership in that direction, I think 
would be helpful. But once again very powerful individuals in 
this process will have to give up something for that to happen.
    I had a town hall meeting recently in my district and a lot 
of the front line people, cities, counties, we have made all 
these changes but we haven't seen any difference in those 
changes. We haven't heard from the department. I think it is 
good that we have this committee because we are able to give 
the department input that they probably won't get because they 
don't have representation in 100--is it 435, 535 or so 
districts throughout the Nation. So as we move along, I think 
you are right this will not happen tomorrow but on behalf--
maybe an event here in the homeland may spearhead a little more 
targeting.
    I hate to say it, I used to be a state trooper. We don't 
get a street light until we have five casualties at that 
intersection and all of a sudden we need a street light.
    I am glad to serve on this committee so that we can 
hopefully share with our colleagues and lobby our colleagues in 
the leadership to be able to make this happen.
    Mr. Ornstein. Let me add one thing, Mr. Meek, and that is 
if we think about how this could work in practice, it seems to 
me we have to revise rule X and certainly you need a committee 
that would have authorizing authority--oversight authority for 
the new department, but obviously authorizing authority would 
immediately challenge those who authorize, have authorization 
authority over the INS and these other major agencies. Here is 
where some serious thought into the way in which the ad hoc 
Energy Committee that Speaker O'Neill created may be worth 
doing. It may be that we can create a kind of new process with 
a Speaker playing a very considerable role where you handle the 
overall authorization but the other departments also take 
primary jurisdiction over the authorization for the individual 
agencies under time deadlines set by the Speaker and then you 
get together in a coordinating fashion and you have some shared 
responsibility as they did when the authorization comes to the 
floor. And that might be at least one way to think about 
rewriting the rule to create this flexible process.
    Mr. Diaz-Barlart. Thank you very much.
    Mr. Cox.
    Mr. Cox. Thank you, Mr. Chairman. Thank you very much, as 
always, for your attention to the way that Congress operates 
and the way that we might improve the institution. Your 
testimony I think was very clear on the main point before us. 
Your joint testimony that you formally submitted that states 
the reason for creating a permanent standing committee with 
primary jurisdiction is clear. I just want to make sure that I 
understand for the record with respect to each of your 
testimonies, do you favor creating a permanent standing 
committee with primary jurisdiction over homeland security?
    Mr. Ornstein. Yes.
    Mr. Mann. Yes.
    Mr. Cox. I didn't think there was any question about that. 
I wanted to be sure, particularly because you did such an 
excellent job of responding to Chairman Dreier, who asked you 
to play devil's advocate and argue against the proposition you 
came to testify in support of.
    Second, you point out that the Homeland Security Act 
states, reading from the act, each House of Congress should 
review its committee structure in light of the reorganization 
of responsibilities within the executive branch. Now, that was 
an instruction not only to the House, the sense of the 
Congress, but an instruction quite serious nonetheless because 
it was enacted by Congress, instruction to the House and to the 
Senate. How do you believe, how do you evaluate the job that 
the Senate is doing?
    Mr. Mann. Sort of my view is not particularly well.
    Mr. Cox. I guess I would make it more clear. Are they doing 
anything formally that we know of?
    Mr. Mann. No. All they have done is refer, if you will, a 
sort of--as I understand it, the primary jurisdiction for the 
law establishing the Department of Homeland Security to the 
Governmental Affairs Committee, but haven't in any way 
reorganized jurisdictions from other committees to set up joint 
jurisdictions. As best as I can tell, the only real change in 
the Senate is the parallel to the House on the Appropriation 
Subcommittee.
    Mr. Ornstein. Unless they are acting as the White House did 
and going to some secret situation room every night to plot 
their plan for reorganizing the committee system, which I 
doubt, there is no action. There has been no effort made that I 
can see to get either the Rules Committee or some new entity, a 
select committee, going to think this process through. No 
Senator has suggested that I know of that they act in this 
area, and it is frankly not good. It is distressing. You have 
created a mechanism at least for coordinating, focusing on 
things, being able to do what Congress should be doing right 
now, at least as we get a new department under way, and make 
sure there aren't things lost between the cracks or problems 
across agency lines that are highlighted and a venue for people 
to come and talk about such things or to offer complaints or 
problem areas, and they have been. I don't know it frankly.
    Mr. Cox. Of course the Appropriations Committee in the 
Senate has restructured itself. So it is the authorizing side 
that remains to be dealt with. I wanted to ask you, given that 
state of affairs in the Senate, what, if any, impact do you 
think that has on our effort here in the House?
    Mr. Ornstein. At one level in the short run it will make it 
more complicated for you and it will make it harder for you. 
But at the same time my guess is that as we see the Senate fall 
very far short of its responsibilities in oversight or in 
coordination, it will underscore the need to do what you have 
started to do and have been working toward. But obviously if 
you created a committee and began the process of coordinating 
the authorization of the new department and the Senate did 
nothing, it would make for a very weird set of conferences that 
would be even stranger than some of the ones we have seen 
before with a floating group of people coming in and out for 
each of the different pieces it has, which can't be good for 
making policy.
    Mr. Cox. I think that is destined to happen if we don't 
change because the mission of the Department of Homeland 
Security and indeed the mission of the Federal Government now 
as it pertains to fighting terrorism on our domestic turf is to 
restructure the executive branch so that a responsibility that 
right now is merely defined by the margins of the 
responsibilities of multiple agencies is the bureaucratic 
equivalent of that ball that drops in the middle of the 
outfield while all the fielders meet in areas where they are 
right field, center field, left field, might have them be 
limited to where they can run to catch the ball. So we are 
trying to get agencies that have worked in parallel in the past 
to start talking to each other and share. Every bit of 
legislation that we enact with respect to homeland security 
almost certainly is going to be redefining those margins.
    Therefore, if we don't restructure Congress because of the 
nature of our work here and the nature of the problem in the 
executive branch, we are going to have a half dozen or more 
congressional committees that all say that is me, that is me, 
that is me. Most pointedly we are going to go out to NORTHCOM 
on the way out to Los Angeles mid-June and take a look at DOD's 
effort to address the domestic terror threat, but you know we 
have in the middle of the Homeland Security Act a statement 
that the Department of Homeland Security is not responsible for 
warfighting and it is not responsible for the military defense 
of the United States. Now, I think what people have in mind is 
that we are not going to have a contest in the chain of command 
between the Secretary of Defense and the Secretary of Homeland 
Security, and that is a good thing that we put that in the 
statute. But to say that Homeland Security is not responsible 
for warfighting, we got to push a little bit on that definition 
and say what happens now is if the war is fought here and what 
happens if it is not fought using tanks and soldiers. What 
happens if instead the opening day of the war is 23 shopping 
centers are blown up in 23 different cities in the United 
States. Is that a war we are in? Is DHS prevented from waging 
that war on our behalf? Does NORTHCOM or the Department of 
Defense think they are in charge of fighting it? If so, how do 
they fight it, posse comitatus and so on? We have all these 
questions that we have to start asking ourselves. But they 
literally define the margins of everyone's responsibility.
    So if Congress doesn't redefine itself so that this is the 
center lane of somebody's concern rather than everybody's 
marginal concern, I think we are going to have a hell of a time 
passing any descent legislation or, worse yet, conducting any 
thorough oversight.
    I want to conclude by commending you on your recommendation 
that the Speaker establish his own coordination mechanism 
regulating the required testimony of DHS officials before 
committees and subcommittees because obviously 88 on the Hill 
is too many. In the House what we are doing to address this 
problem at the request of the Speaker and the majority leader 
is to use this select committee as the coordinating mechanism. 
That doesn't mean that other committees might not under 
appropriate circumstances have department personnel come 
testify there instead of in front of this committee. What it 
means though is we are the clearinghouse for all those requests 
and there won't be replication of effort among multiple 
committees.
    So I think thus far I think that has been working very 
well. It may not be evident to the naked eye, but behind the 
scenes there is coordination is going on. It is one of the 
first dividends that is being paid to us from having all these 
committee chairs on this committee. So your recommendation is 
very sound. I don't know what we are doing on the Senate side 
to achieve that result.
    Mr. Mann. If I may say that your discussion of the, if you 
will, the war making authority in the example of the shopping 
centers is precisely the kind of question that I believe will 
get asked only by having a focus of sustained attention built 
into the organization of Congress where members like yourselves 
ask such questions and then proceed to get the follow up and 
get answers so that we think through in advance of the need to 
respond appropriately.
    Mr. Ornstein. You also, I think, have highlighted another 
very interesting issue, which is that for the Speaker the 
headaches that exist trying to create a standing committee in 
dealing with the committee chairs might very well be exceeded 
if we don't move in that direction and we have these kinds of 
problems and all these competing claimants. So this may be a 
part of the process of making the leaders understand that not 
acting could prove even more frustrating than biting the bullet 
and going ahead and making sure we have an entity with real 
importance and reach and clout.
    Mr. Cox. I think Congressman Meek stated that very clearly. 
It is inevitable if there is an attack on the country the 
fingers are going to be pointing everywhere. The first place is 
the President and the next place is the Secretary and the next 
place is to us, and there is no escaping that. It shouldn't be, 
however, the political downside risk that concern us most but 
rather the fact that there might well be some credibility in 
such charges if we don't occupy the center ground of what is 
now the new jurisdiction, the new turf of Homeland Security 
with an oversight committee and a legislative committee that 
has the power to go in and get the job done right.
    Mr. Diaz-Barlart. It doesn't seem like a possibility, but 
should there be a Joint Committee on Homeland Security?
    Mr. Ornstein. No, they never work. You know, we ended up in 
1976 basically abolishing the joint committees because it 
simply can't when you have 100 Senators and 435 House members 
create the right kind of balance. Rotating chairmanships. If 
you look back at the history of joint committees, the Joint 
Economic Committee is basically--it did have an authorization, 
but it basically is a select committee in effect. Worked well 
for a while but eventually it lost its focus. The same was true 
of the Joint Committee on Atomic Energy.
    Frankly to have joint committees on taxation and the like, 
they are just devices. They are not really joint committees. 
They might just as well be--we ought to shift the Joint 
Committee on Taxation into a Congressional Tax Office like the 
Congressional Budget Office, but that is not the way to go.
    Mr. Mann. I agree with that.
    Mr. Diaz-Barlart. Thank you so much. Your testimony has 
been extraordinarily helpful and we are very, very thankful. 
The hearing is hereby closed.

            SUPPLEMENTAL INFORMATION FROM CHARLES W. JOHNSON

    July 10, 2003
    Hon. Lincoln Diaz Chairman
    Subcommittee on Rules, Select Committee on Homeland Security
    U.S. House of Representatives
    Washington, DC 20515
    Dear Mr. Chairman:
    Thank you for your recent inquiry regarding the referral of 
measures to the Select Committee on Homeland Security. There are many 
issues that need to be addressed by the House regarding jurisdiction 
over the Department of Homeland Security. Many of those issues might be 
addressed by the various entities tasked with that responsibility, such 
as the Select Committee on Homeland Security. For example, any proposal 
to establish a new standing committee would also include a proposed 
jurisdictional statement in clause 1 of rule X that would guide the 
Speaker's future referrals. Such a grant of affirmative jurisdiction 
within the rule X rubric would supplant the Speaker's current unique 
discretionary referral authority.
    The starting point for the Select Committee's jurisdiction is 
section 4 of House Resolution 5. It states, in pertinent part, that the 
Select Committee may develop recommendations on ``such matters that 
relate to the Homeland Security Act of 2002 (P.L. 107-296) as may be 
referred to it by the Speaker.'' Informing this jurisdictional 
statement were the Speaker's remarks preceding the adoption of House 
Resolution 5. In that statement, the Speaker indicated his belief that 
the creation of the Select Committee would not perturb the existing 
areas of jurisdiction of the standing committees and the Permanent 
Select Committee on Intelligence. See 149 Cong. Rec. H5 (daily ed. 
January 7, 2003). The putative chairman of the Committee on Rules 
echoed this sentiment. See Id. at H15.
    This dichotomy between acknowledging the jurisdictional interest of 
a new select committee and maintaining the jurisdiction of the existing 
standing committees and the Permanent Select Committee on Intelligence 
can be seen in the referrals that have been made thus far to the Select 
Committee. It would seem that the category of bills you refer to as 
addressing ``first responder grants'' (H.R. 1007, 1389, 1449, 1803, and 
1915) exemplifies this jurisdictional overlap. Other categories of 
bills you have cited, namely those addressing agencies and offices that 
have been transferred into the Department of Homeland Security, such as 
the Coast Guard or the Immigration and Naturalization Service, would 
seem to indicate a choice by the Speaker to allow the committee with 
jurisdiction over the matter an initial opportunity to review the bill. 
Under clause 1 of rule X, the Committee on Transportation and 
Infrastructure has jurisdiction over the ``Coast Guard'' and the 
Committee on the Judiciary over ``immigration and naturalization.''
    In an appropriate case, the Speaker retains the power to make a 
sequential referral to the Select Committee of a bill not referred 
there on the date of introduction. Thus it is important to note that 
the Speaker's referrals to date do not necessarily indicate the breadth 
or depth of the Select Committee's jurisdiction to review the work 
product of the standing committees and the Permanent Select Committee 
on Intelligence. At the time the committee of initial referral reports 
a bill to the House, the Speaker may respond to a request by the 
chairman of the Select Committee for a sequential referral to review 
the recommendations of that committee. In this way, the Speaker might 
navigate the very dichotomy that has prompted your insightful 
questions.
    Lastly, would note the Speaker's referral of H.R. 1416, the 
Homeland Security Technical Corrections Act of 2003. The Select 
Committee received the referral of that measure, reported it to the 
House, and then managed it on the House floor under suspension of the 
rules. In addition to its being a measure that ``relate to the Homeland 
Security Act of 2002,'' this referral calls to mind a statement by the 
putative chairman of the Committee on Rules on the day the Select 
Committee was created. On that day, he projected that the Select 
Committee might have jurisdiction over a bill making technical 
corrections to the Homeland Security Act of 2002. See 149 Cong. Rec. 
H12 (daily ed. January 7, 2003). The Select Committee subsequently 
reported the measure and managed it on the House floor.
    I hope you find this helpful.
    Sincerely,
    Charles W. Johnson, Parliamentarian

    [Whereupon, at 8:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
